<html>
<title> - UNITED NATIONS PEACEKEEPING MISSIONS AND THEIR PROLIFERATION</title>
<body><pre>[Senate Hearing 106-573]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-573

      UNITED NATIONS PEACEKEEPING MISSIONS AND THEIR PROLIFERATION

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              APRIL 5, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
65-701 CC                    WASHINGTON : 2000





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS

                     ROD GRAMS, Minnesota, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Allard, Kenneth, Ph,D., vice president, Stratfor.com, Alexandria, 
  VA.............................................................    33
    Prepared statement...........................................    36

Bolton, Hon. John R., senior vice president, American Enterprise 
  Institute for Public Policy Research, Washington, DC...........    21
    Prepared statement...........................................    24
     Table--Figure One: Pre-Clinton U.N. Peacekeeping Missions, 
      1948-1992..................................................    32
    Table--Figure Two: Clinton U.N. Peacekeeping Missions 1993-
      March 31, 2000.............................................    33

Grams, Hon. Rod, U.S. Senator from Minnesota, prepared statement.     2

Hillen, John, Ph.D., U.S. Commission on National Security/21st 
  Century........................................................     9
    Prepared statement...........................................    13
    Chart--UN Peacekeepers: Size 1988-2001.......................    19
    Chart--UN Peacekeepers: Size & Cost 1988-2001................    20

O'Hanlon, Michael, Ph.D., senior fellow, Brookings Institution, 
  Washington, DC.................................................     3
    Prepared statement...........................................     5
    Table: KFOR Troops by Country as of April 1, 2000............     8

                                 (iii)

  

 
      UNITED NATIONS PEACEKEEPING MISSIONS AND THEIR PROLIFERATION

                              ----------                              


                        WEDNESDAY, APRIL 5, 2000

                               U.S. Senate,
          Subcommittee on International Operations,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:45 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Rod Grams 
(chairman of the subcommittee) presiding.
    Present: Senators Grams and Brownback.
    Senator Grams. I would like to bring this hearing to order. 
Thank you very much, gentlemen. I am sorry I am late. I had 
about 140 Minnesota high school students in the Hart Atrium 
that we had to meet with briefly, and of course with that many 
it took just a little bit longer than what we planned. So I 
appreciate your indulgence and I again apologize for being 
late.
    First I want to thank the witnesses for taking time and 
participating in today's hearing. As you have noticed, no 
administration witness was invited to testify this morning, and 
that was on purpose. I want this to be a more free-flowing 
discussion on the evolution of peacekeeping than multiple 
panels would allow.
    However, I agree with the minority that it is important to 
hear from the administration and we will be scheduling a 
hearing soon to hear from the administration regarding the 
United Nations and of course the efforts on peacekeeping.
    Last week during the roundtable discussion on peacekeeping 
that we had with members of the U.N. Security Council I was 
particularly struck by the remarks of the representative from 
France. After being admonished by the chairman of the Armed 
Services Committee, who stated ``Do not take on more than you 
can do and do effectively,'' the Ambassador from France, Mr. 
Levitte, replied ``Is is morally''--he said in a question: ``Is 
it morally possible to say no to populations which are already 
desperately in need of help?''
    That might as well have been our Ambassador to the U.N. 
responding to Chairman Warner, because assertive 
multilateralism is really back with a vengeance.
    I thought the tragedy in Somalia, where the administration 
sacrificed the lives of 18 brave American soldiers without 
regard to whether such action advanced our vital national 
interests, marked the end of U.S. support for such forays, but 
I was wrong. The only difference is now, in U.N. peacekeeping 
missions, like the one in the Democratic Republic of the Congo 
U.S. forces will not initially be on the front lines.
    The desire to make political statements of support for 
nations in turmoil appears to be drowning out considerable and 
considered options and opinions as to whether the U.N. is able 
to carry out the mandates it has been given. I am concerned 
that a fiasco may be a result.
    On March 23, Ambassador Holbrooke gave a speech to the 
Fifth Committee where he stated that some of the defects of the 
U.N. were so great that they threatened the achievement of our 
core goals in peacekeeping and the institution itself. He 
talked then of a train wreck, because neither the management 
structure nor the financial system currently in place will 
support the projected expansion of peacekeeping in Africa.
    Why did the U.S. support missions it knows the U.N. cannot 
effectively carry out? The French Ambassador asked whether it 
was morally possible to say no to populations that are 
desperately in need of help. Is it morally possible to say yes 
when you know you cannot deliver?
    Equally as important, these political statements are 
obscuring the transformation of peacekeeping from the 
separation of belligerents into an exercise in nation-building 
that goes far beyond what Congress may be prepared to accept. 
According to PDD-25, peacekeeping is a tool intended to provide 
a finite, stable window of opportunity for combatants to 
resolve their differences through diplomatic means. Under PDD-
71, support for peacekeeping explicitly embraces the infinite 
commitment to nation building. That is what PDD-71 is all 
about.
    In our desire to do something, the administration is 
agreeing to endorse, what is in effect, an indefinite U.N. 
commitment to govern distressed nations when we commit to 
supporting peacekeeping operations. In short, the pursuit of 
the United States' national interest is once again being 
obscured by a proliferation of multilateral action in the 
service of overly ambitious and vague aims.
    In the Senate, many of us express concern that peacekeeping 
missions lack an exit strategy, but more and more it seems 
there is the lack of an entry strategy as well. I am looking 
forward to our discussions today about U.N. peacekeeping, why 
we get in and how we get out.
    The U.N. was formed primarily as a mechanism for keeping 
the peace. If it fails in these new missions, credibility could 
be irreparably undermined.
    So with that, I thank you very much and I would like to 
hear your opening statements or comments. We might as well 
start from our left to right, so Mr. O'Hanlon, welcome.
    [The prepared statement of Senator Grams follows:]

                Prepared Statement of Senator Rod Grams

    First, I want to thank the witnesses for participating in this 
hearing today. As you have noticed, no administration witness was 
invited to testify. And that was on purpose. I want this to be a more 
free-flowing discussion on the evolution of peacekeeping than multiple 
panels would allow. However, I agree with the minority that it is 
important to hear from the administration regarding the United Nations, 
and will schedule a hearing soon for that purpose.
    Last week, during the roundtable discussion on peacekeeping with 
members of the UN Security Council, I was particularly struck by the 
remarks of the representative from France. After being admonished by 
the Chairman of the Armed Services Committee, who stated ``Don't take 
on more than you can do, and do effectively,'' Ambassador Levitte 
replied, ``Is it morally possible to say `no' to populations which are 
desperately in need of help?''
    That might as well have been our Ambassador to the UN responding to 
Chairman Warner, because assertive multilateralism is back with a 
vengeance. I thought the tragedy in Somalia, where the administration 
sacrificed the lives of 18 brave American soldiers without regard to 
whether such action advanced our vital national interests, marked the 
end of U.S. support for such forays. I was wrong. The only difference 
is that now, in UN peacekeeping missions like the one in the Democratic 
Republic of the Congo, U.S. forces won't initially be on the front 
lines.
    The desire to make political statements of support for nations in 
turmoil appears to be drowning out considered opinion as to whether the 
UN is able to carry out the mandates it has been given. I am concerned 
that a fiasco may be the result. On March 23, Ambassador Holbrooke gave 
a speech to the Fifth Committee where he stated that some of the 
defects of the UN were so great they threaten the achievement of our 
core goals in peacekeeping and the institution itself. He talked of a 
train wreck, because neither the management structure nor the financial 
system currently in place will support the projected expansion of 
peacekeeping in Africa. Why did the U.S. support missions it knows the 
UN cannot effectively carry out? The French Ambassador asked whether it 
was morally possible to say ``no'' to populations that are desperately 
in need of help. Is it morally possible to say ``yes'' when you know 
you can't deliver?
    And equally as important, these political statements are obscuring 
the transformation of peacekeeping from the separation of belligerents 
into an exercise in nation building that goes far beyond what Congress 
may be prepared to accept. According to PDD-25, peacekeeping is a tool 
intended to provide a finite, stable window of opportunity for 
combatants to resolve their differences through diplomatic means. Under 
PDD-71, support for peacekeeping explicitly embraces an infinite 
commitment to nation building. That's what PDD-71 is all about. In our 
desire to do something, the administration is agreeing to endorse, what 
is in effect, an indefinite UN commitment to govern distressed nations 
when we commit to supporting peacekeeping operations. In short, the 
pursuit of the United States' national interests is once again being 
obscured by a proliferation of multilateral action in the service of 
overly ambitious and vague aims.
    In the Senate, many of us express concerns that peacekeeping 
missions lack an exit strategy. But more and more it seems there is a 
lack of an entry strategy as well. I'm looking forward to our 
discussion today about UN peacekeeping--why we get in and how we get 
out. The UN was formed primarily as a mechanism for keeping the peace. 
If it fails in these new missions, its credibility could be irreparably 
undermined.

STATEMENT OF MICHAEL O'HANLON, PH.D., SENIOR FELLOW, BROOKINGS 
                  INSTITUTION, WASHINGTON, DC

    Dr. O'Hanlon. Thank you, Senator. It is an honor to be here 
on this very important subject. I just wanted to summarize 
briefly my remarks from my written statement, if I could, and 
also to respond to some of the issues you raise because I think 
they are very important. Even though I am a supporter of these 
two new missions in Africa in particular that you alluded to, I 
would share your concern and think that, even if the Congress 
supports them, as I hope it will, that it watch very carefully.
    Let me just make a couple of comments on why I think these 
missions are worth trying in general and then a couple of 
specifics about Sierra Leone and Congo and wrap it up there for 
my opening remarks.
    In general, I think that we have to take the French 
Ambassador's emotion and moral view into account. It is not a 
prescription for policy, but he is right that we have to worry 
about the fact that there are still half a million people in 
the world dying in civil conflicts a year. Many of them are in 
Africa. We have not done a great job this decade.
    I think it has been poor policy in the way we have executed 
these missions, in Somalia in particular, and also not getting 
involved in Rwanda that are really the problems--poor 
execution. But I would agree with his sentiment that we have to 
try to do something. There are just too many lives at risk.
    I would also make the broad point: In foreign policy terms, 
the United States derives much of its legitimacy as a world 
leader from the moral dimension of its foreign policy. I do not 
want to push this point too far and suggest that we have the 
luxury of just doing peacekeeping operations to try to look 
like we are the good guys and that this is the way we can 
really define our role in the world. That would be an 
overstatement.
    But I do think it is noteworthy that the World War II and 
post-World War II generations helped solidify democracy, helped 
solidify market economies. This was a very moral foreign policy 
and I think it is part of why we have legitimacy among our 
allies.
    We are in a very unusual situation in world history. We 
lead an alliance that has three-quarters of all the world 
economic power, three-quarters of all world military power. 
That is remarkable. Usually countries when they reach that 
level of dominance or leadership, they breed resentment and 
other countries tend to want to balance them or fight against 
them or compete with them. To a large extent we do not elicit 
that reaction, and part of it is because of our broader effort 
to stand for principle.
    Now, again I do not want to push this point too far. 
Certainly going into a U.N. mission and failing does not 
advance in any way this particular idea. But I do want to at 
least give some geostrategic backup to the French Ambassador's 
moral sentiment, that it is true, I think, that moral foreign 
policy has been a part of our country. Ronald Reagan stood for 
it, Roosevelt and Truman stood for it. This has been a very 
important thing.
    So the question becomes practical to my mind. It becomes 
how you do this well and how do you make sure you do not 
overtax your military in the process? How do you make sure you 
do not get into missions that are likely to fail? That is the 
hard part. I would concede that point and share your concerns 
about Sierra Leone and Congo. You alluded to Africa more 
generally, but I will focus a minute on those two particular 
conflicts.
    I believe that sending in observers or small peacekeeping 
forces does make sense, but it is a gamble. We do not know, for 
example, what Mr. Sankoh is really up to in Sierra Leone. A 
very good story in the New York Times today summarizes the fact 
that we do not really know if this guy is preparing to go back 
to war should he lose an election, is he even going to allow 
the elections at all, is the U.N. going to be able to establish 
itself within that country? We do not know.
    I think it is worth a chance for peace because I remember a 
year ago when we were all reading in the newspapers of people's 
arms and hands being tragically amputated, cutoff, in brutal 
campaigns of violence. So if that is the alternative I would at 
least like to try to work with the peace process.
    But I am nervous about it and I would not deny that even as 
a supporter of the policy. So I think we have to from my point 
of view try to go along with the peace process, but be 
cognizant that it may fail. There is some small risk that, I 
think you are right, that the United States could be drawn into 
this in one way or another.
    If 100 peacekeepers were massacred, could the United States 
and the world afford to stand by? I am not sure. So I agree 
with your point, there is a risk, and it does make me nervous. 
It is one of the things I want to follow most closely in the 
year in foreign policy that is on its way, because this is a 
mission that is risky.
    One quick comment on Congo and I will wrap up. There is 
reason to hope that the Congo peace mission could very well 
work. We know that the Rwandans and Burundians and Ugandis are 
concerned about the Interahamwe, the Hutu extremists who 
massacred almost a million Tutsi and moderate Hutu in Rwanda in 
1994, many of whom have been in the Congo ever since. So if 
they can somehow have a peace agreement that manages to contain 
that force, they may be willing to live with it.
    Likewise, Kabila, the President of Congo, if he can have 
some way to begin to consolidate control over this huge 
country--a country, by the way, which I served in as a Peace 
Corps volunteer, and it is a remarkably difficult place to do 
anything in because the infrastructure is so poor, and we do 
have to be nervous about that. But it is also a place that has 
great potential.
    I think Mr. Kabila knows that he needs peace to begin some 
sort of a process of consolidating his rule. I do not think he 
is a nice guy, but I hope he can at least get beyond the war 
footing he has been on. But to do that he needs this sort of a 
truce as well.
    So both sides do have an incentive. On the other hand, I am 
nervous about the Interahamwe, the Hutu extremists. They are 
supposed to be demilitarized eventually in this Congo peace 
accord. I am not sure what incentives they have to let 
themselves be demilitarized. So we can hope to cutoff their 
funding, to somehow marginalize them and over time hope that 
they have no better alternative. But I am not sure it will 
work.
    So let me conclude by saying I am supportive of these 
missions, but I share your nervousness. I hope the Congress 
will support them in the end, but also keep a very close eye on 
how they develop, because even if we go ahead, as you have 
correctly pointed out, victory and success is by no means 
preordained.
    Thank you.
    [The prepared statement of Dr. O'Hanlon follows:]

               Prepared Statement of Dr. Michael O'Hanlon

    It is an honor to appear before the committee today to discuss this 
important topic. Peace operations have the potential to save many lives 
at modest cost, if conducted wisely and judiciously.
    That is not the only benefit of peace operations. To the extent the 
United States supports and in some cases participates in them, they 
also lend a moral character to U.S. foreign policy that helps 
legitimize this country's leadership role in the world. U.S. foreign 
policy has never been strictly realist, in the sense of only protecting 
the country's core military and economic interests; it has usually been 
influenced by American values and principles as well, including the 
notion that innocent people, wherever they live, should not be wantonly 
killed or otherwise severely oppressed. This is an element of U.S. 
foreign policy for which the party of Lincoln and Reagan, as well as 
the party of Roosevelt and Truman, can both take credit and be proud.
    Traditional great powers, focused only on advancing their own 
interests, generally have bred resentment and competition. By contrast, 
the United States while not universally popular around the world, 
continues to lead a western alliance system accounting for at least 75 
percent of world GDP and military spending that shows: no signs of 
dissolving. U.S. willingness to support peace operations and protect 
innocent lives around the world is not, of course, the main reason for 
this desirable geopolitical state of affairs. But it is a contributing 
element.
    If conducted well, peace operations are worth doing. But it is 
admittedly hard to do them well. Different types of missions have 
different difficulties, costs, and limitations, and these must always 
be kept in mind.
    In the rest of this testimony, I offer a number of observations on 
several broad issues. First, why conduct peace operations? Second, what 
are the main attributes of U.N. peacekeeping missions, and of U.S. 
contributions to them? Finally, what effects do peace operations and 
humanitarian interventions tend to have on U.S. military forces?
Why Conduct Peace Operations?
  <bullet> Nearly half a million people a year die in civil conflicts 
        around the world, a figure that is relatively unchanged since 
        the end of the Cold War.
  <bullet> Humanitarian missions and peace operations have saved an 
        uncertain number of people over this period, but possibly as 
        many as several hundred thousand.
  <bullet> There are dozens of conflicts in the world at a time, but 
        only a few are truly serious. In fact, about 10 conflicts in 
        the 1990s accounted for 3/4 of the decade's entire conflict-
        related deaths.
  <bullet> By focusing on acute conflicts, the international community 
        can thus help make a meaningful difference in reducing the 
        overall scale of global violence.
  <bullet> The majority of severe conflicts in the 1990s were in 
        Africa; specifically, civil wars in Somalia, Sudan, Angola, 
        Rwanda, Burundi, Liberia, Sierra Leone, and Congo have been 
        extremely bloody (the first five have been the worst, to date 
        at least). So has the Ethiopia-Eritrea conflict, though in a 
        small mercy it has involved a lower percentage of civilian 
        deaths.
  <bullet> For a country like the United States that bases much of its 
        role in the world on its support for democracy and human 
        rights, these facts simply cannot and should not be ignored, 
        even if they admittedly must be secondary missions for U.S. 
        armed forces.
  <bullet> In some cases, peacekeeping missions can help along peace 
        processes in these types of conflicts--though there is 
        admittedly no guarantee of peace, unless a coalition led by the 
        United States or one of a small number of capable countries is 
        willing to use combat force to sustain or impose a peace.
What Are the Main Attributes of U.N. Peacekeeping Missions?
  <bullet> In most such cases, U.S. troop contributions are very small.
  <bullet> For example, since 1995 U.S. participation globally in U.N. 
        peacekeeping missions has generally numbered 500 to 1,000 
        troops, less than 5% of the total, and the today's total 
        includes primarily U.S. civilians (not soldiers) at that.
  <bullet> U.S. financial contributions are considerable; they have 
        generally ranged between $250 million and $1 billion a year in 
        the last decade.
  <bullet> Given all the United States does around the world 
        militarily, benefiting not only itself but allies and indeed 
        the international system as a whole, the Congress' belief that 
        U.S. assessments for U.N. peacekeeping should be reduced to 25% 
        of the world total seems quite reasonable.
  <bullet> However, given the stakes, and the lives involved, these 
        costs are not egregious, and the United States should certainly 
        not resist paying its fair share. After all, the United States 
        gives $5 billion in foreign aid per year (ten times as much, 
        roughly) simply to foster and sustain the Mideast peace 
        process, and it spends anywhere from $30 billion to $60 billion 
        a year by my estimate to defend an ally, South Korea, that is 
        of limited economic importance to the United States (there are 
        admittedly other reasons for that military commitment, but 
        there is still some value to the comparison).
  <bullet> As the Clinton Administration rightly argues, the United 
        Nations cannot generally conduct peace enforcement. Regional 
        organizations, or coalitions led by one of the world's 
        strongest military powers, are needed for that purpose now, and 
        will be for the foreseeable future. The U.N. can monitor peace 
        accords and ceasefire lines, protect citizens from bands of 
        criminals or small militia elements, and carry out similar 
        functions. It should not generally be asked to fight the main 
        parties to a peace accord who might later violate that accord, 
        however.
  <bullet> That means U.N. peacekeeping missions can fail. Running the 
        risk they will do so is generally acceptable, given that the 
        alternative is often to tolerate ongoing and very lethal 
        violence.
  <bullet> However, there are other costs of failure: the prestige of 
        the United States, the lives of peacekeepers, and in an extreme 
        case demands on U.S. military forces who might be needed to 
        extricate peacekeepers. U.N. peacekeeping missions that are 
        highly likely to fail catastrophically should probably not be 
        undertaken.
  <bullet> But there is a dilemma: it is usually quite hard to assess 
        the risks of failure.
  <bullet> Sierra Leone and Congo are difficult cases, but in my 
        judgment they both merit a U.N.-assisted attempt at peace at 
        this point. (By way of comparison, it may be worth noting that 
        Angola, alas, may not--given what we know about Savimbi.)
How Do Peace Operations and Related Missions Affect the U.S. Armed 
        Forces?
  <bullet> It is true that U.S. forces sometimes ``backstop'' U.N. 
        peacekeeping missions, representing in effect the 911 rescue 
        squad in case peacekeepers get into trouble. However, this is 
        not always the case by any means.
  <bullet> It is also true that U.S. military forces and those of 
        allies have run a number of humanitarian missions authorized by 
        the United Nations in the 1990s.
  <bullet> All told, these efforts have cost about $3 billion a year in 
        the 1990s, about 1% of U.S. defense spending.
  <bullet> They have also placed serious strains on the men and women 
        of the U.S. armed forces, on American military equipment, and 
        on policymakers.
  <bullet> Specifically, the United States military has spent about $10 
        billion in Bosnia, $8 billion in Iraq, $5 billion in Kosovo, $2 
        billion in Somalia, $1 billion in Central Africa, and $1 
        billion in Haiti, according to CBO and Pentagon data. It has 
        also spent money on unanticipated deployments to Korea, Taiwan, 
        and elsewhere.
  <bullet> About one-third of these costs, most notably most of those 
        for Iraq as well as those for Korea and Taiwan, were not for 
        humanitarian missions as the term is generally used. They were 
        for traditional military missions such as deterrence or 
        containing Saddam Hussein. They may have had some humanitarian 
        benefits (e.g., no-fly-zones may have reduced Saddam's ability 
        to suppress indigenous populations somewhat), but they were not 
        principally humanitarian or peace operations.
  <bullet> It is also worth noting that, on the ground at least, our 
        allies have contributed substantially to peace operations. 
        Attached is recent data from NATO headquarters showing that the 
        United States is providing about 13 percent of all troops, and 
        16 percent of all NATO troops, to the KFOR operation in Kosovo 
        today. Likewise it is providing just under 25 percent of all 
        troops, and 27 percent of all NATO troops, in Bosnia. This is 
        as it should be, given our contribution during the Kosovo war, 
        and given U.S. military commitments from the Persian Gulf to 
        Korea. But it is still worth noting. Our allies do not yet do 
        their fair share, but they do contribute substantially. And 
        Australia did much more than its fair share in East Timor last 
        year.
  <bullet> The allies' sacrifices are also measured in blood. For 
        example, Britain lost as many troops killed in Bosnia during 
        the misguided UNPROFOR operation there (prior to the NATO-led 
        mission beginning in late 1995) as the United States lost in 
        the fateful Mogadishu firefight of 1993 in Somalia. Since World 
        War II, more than 1,000 U.N. peacekeepers have died during 
        their service.
  <bullet> Peace operations are hard on the U.S. military, but not 
        beyond its capacities. Despite the strains from peace 
        operations and other missions, today's U.S. military readiness 
        remains good, even if it is admittedly no longer excellent. In 
        particular, education and experience levels for troops, 
        training hours, proficiency at test ranges, and mission capable 
        rates for most equipment are comparable to typical 1980s levels 
        (if not as good as early 1990s levels); safety metrics are the 
        best they have ever been; and the performance of troops in 
        missions remains outstanding.
  <bullet> This is not an argument for complacency about readiness, and 
        it is true that high operations tempo in the 1990s has degraded 
        military readiness to some extent. But the claim that it has 
        led to a ``hollowing out'' of the force, or returned U.S. 
        military preparedness to the mediocre levels of the 1970s, is 
        not substantiated by the evidence.
  <bullet> Although retention and recruitment are problems for the 
        military, and are exacerbated in many cases by high operations 
        tempo, it is also true some units deployed to places such as 
        the Balkans have enjoyed reenlistment rates greater than those 
        for the force as a whole. In addition, many retention and 
        recruitment trends have started to recover.
  <bullet> The strain of peace operations can be mitigated by the 
        Pentagon through wise policy moves. Recently, the Pentagon has 
        made some such moves--reducing some training demands of 
        marginal utility, so that people can spend more time at home 
        base and with their families; making deployments more 
        predictable; increasing certain types of specialized military 
        units that have received particularly heavy use; and so on.
  <bullet> More can and should be done in these regards. For example, 
        the Army might consider reducing the size of its main combat 
        units somewhat further, so that it can man them at 100% 
        strength. That way, deploying units would not need to rob 
        personnel from other units to be at full strength.
  <bullet> In short, while peace operations and related missions have 
        been tough on the U.S. armed forces, they are not beyond its 
        capacities, particularly if missions do not grow further in 
        number.


------------------------------------------------------------------------
         KFOR Troops by Country as       of April 1, 2000

------------------------------------------------------------------------
NATO Members:
Belgium....................................................       1,170
Canada.....................................................       1,370
Czech Republic.............................................         180
Denmark....................................................         850
France.....................................................       5,300
Germany....................................................       5,650
Greece.....................................................       1,180
Hungary....................................................         300
Iceland....................................................           1
Italy......................................................       6,550
Luxembourg.................................................           2
Netherlands................................................       1,550
Norway.....................................................       1,240
Poland.....................................................         750
Portugal...................................................         340
Spain......................................................       1,230
Turkey.....................................................       1,130
United Kingdom.............................................       3,420
United States..............................................       6,150
                                                            ------------
  NATO Total...............................................      38,363

Non NATO:
Argentina..................................................         110
Austria....................................................         420
Azerbaijan.................................................          34
Bulgaria...................................................          40
Estonia....................................................          10
Finland....................................................         800
Georgia....................................................          40
Ireland....................................................         100
Jordan.....................................................         100
Latvia.....................................................          10
Lithuania..................................................          30
Morocco....................................................         340
Russia.....................................................       3,200
Slovakia...................................................          70
Slovenia...................................................           6
Sweden.....................................................         840
Switzerland................................................         150
Ukraine....................................................         250
United Arab Emirates.......................................       1,060
                                                            ------------
  Non-NATO Total...........................................       7,610

KFOR Headquarters (including rear elements in the Former          1,160
 Yugoslav Republic of Macedonia, in Albania, and Greece)...
                                                            ============

    KFOR Total.............................................      47,133
------------------------------------------------------------------------
Note: KFOR is the NATO-led force in Kosovo.

    Senator Grams. Thank you very much.
    I inadvertently forgot to introduce our panel. I apologize 
for that. Dr. Michael O'Hanlon, who is a senior fellow at 
Brookings Institute here in Washington, thank you very much. 
Also Dr. John Hillen, U.S. Commission on National Security/21st 
Century. Doctor, thank you very much for being with us. Also 
the Honorable John Bolton, vice president of the American 
Enterprise Institute for Public Policy Research here in 
Washington. Dr. Bolton, thank you. And also Dr. Kenneth Allard, 
vice president, Stratfor.com--is that correct?
    Dr. Allard. Yes, sir.
    Senator Grams. From Alexandria, Virginia.
    So again I want to thank the panel for taking your time to 
join us here today.
    Dr. Hillen, we will hear your opening comments. By the way, 
Dr. O'Hanlon, your full testimony as written will be entered 
into the record. Dr. Hillen.

 STATEMENT OF JOHN HILLEN, PH.D., U.S. COMMISSION ON NATIONAL 
                     SECURITY/21ST CENTURY

    Dr. Hillen. Thank you, Mr. Chairman. I would also ask 
that--I will make a short opening statement, but I would like 
for my full testimony to be submitted for the record.
    Senator Grams. Without objection, it will be entered.
    Dr. Hillen. Thank you, and thank you again for the 
opportunity to testify on this important subject.
    I want to talk a little bit about the strategic level of 
U.N. military operations. This is the level at which the 
political and the military meet, an important level that gives 
us some good ideas about not only what the U.N. is 
institutionally capable or not capable of, but also gives us 
some ideas about the unique challenges and peculiarities of 
peacekeeping missions in the post-cold war world.
    This is a subject on which I have done some study and I 
studied over 50 U.N. and other multinational peacekeeping type 
missions that have occurred over the last half century and come 
to some conclusions. U.N. peacekeeping goes in cycles. I passed 
out a chart \1\ you will have up there which sort of alludes to 
one of the more recent cycles.
---------------------------------------------------------------------------
    \1\ The charts referred to during Dr. Hillen's testimony are 
included at the end of his prepared statement on pages 19-20.
---------------------------------------------------------------------------
    You will see it sort of goes up and down, and it appears as 
though now we are on an up swing in the cycles again. Since 
last fall, as you know, the U.N. has approved pretty 
substantial peacekeeping missions to East Timor, which the U.N. 
has now taken over from the Australian-led coalition, Sierra 
Leone and Congo we have heard about, and also Kosovo. Of 
course, the caveat there is that NATO is handling the military 
part of that and the U.N. is tucking in behind it with police, 
administrative, governmental support type duties. But it still 
can be thought of in the peacekeeping vein.
    So what is happening now and what we have seen over the 
last 6, 7 months is consistent with a recurring pattern really 
since the inception of the United Nations, and I will talk 
about that chart and these cycles. The cycle that we have seen 
since 1948-49 goes something like this. In the first cycle the 
U.N. experiments with small peacekeeping missions in supportive 
environments.
    We should note that these are not something the U.N. was 
set up to do, even small peacekeeping. In fact, the Secretary 
General that really originated this concept called them 
``chapter six and a half'' because they really do not fall in 
chapter 6 and they really do not fall in chapter 7. So we 
should note that even for the small traditional stuff it has 
always been improvised. It is not something the organization 
was set up to do. But nonetheless they have improvised, and 
they have improved with some success on the small missions.
    So in the second part of the cycle, this initial success 
emboldens the international community to go ahead and give the 
U.N. a little bit more, and it gives the U.N. bigger and more 
complex and more ambitious and more coercive military missions 
to do, and these often take place in a more belligerent 
environment, one that is not quite so supportive.
    In the third part of the cycle, the challenges of managing 
these big missions in dangerous environments tend to overwhelm 
the U.N. and it fails. We have seen that a couple times. So the 
U.N. tries to improvise, but ultimately it cannot really 
overcome its inherent lack of the institutional structures and 
the authoritative management systems or the legitimacy for 
commanding and controlling significant military forces.
    In the fourth part of the cycle, the U.N. is discredited by 
these failures and it retreats and it retreats back to a more 
traditional role in peacekeeping and observation missions.
    Then the fifth part of the cycle, which I think we may be 
entering again into now, is some time later, sometimes years, 
sometimes decades, armed with short memories and with the 
wounds healed, we sort of gear back up again for another foray 
into the U.N. playing a much more central role in being the 
strategic manager of ambitious and large and complex military 
operations.
    I call this the sort of ``Groundhog Day'' effect, because 
it seems to happen over and over. The lessons learned are the 
same really each time, but we tend not to take them into 
account when we are on the upswing. I will just briefly talk 
about some of the lessons learned.
    The chief one is that the U.N. is really not structured in 
any way to manage complex military operations in dangerous 
environments. I go into this over the course of 300 pages in a 
book, but the bottom line is that the organization is uniquely 
unsuited for those sorts of military tasks, and I am talking 
about tens of thousands of troops, well armed, performing 
coercive military operations of the war-fighting type.
    Now, conversely the strengths of the U.N.--its neutrality, 
the fact that it is the world's most representative body, the 
fact that it is generally considered a passive honest broker--
these strengths make the U.N. ideally suited for tasks such as 
to sponsor and manage small peacekeeping operations in 
supportive military environments, and it has been able to do 
well when this formula is applicable. Even then, the U.N. has 
trouble actually managing these military forces, as small and 
innocuous as they may be, but it succeeds at times.
    The U.N.'s inability to manage these complex military 
operations is inherent because it is rooted in its character, 
it is rooted in its laws, it is rooted in the charter and the 
very structure. In other words, it is immutable. It does not 
change and it cannot go away with some administrative 
tinkering.
    I will give you one example. In 1994 I was up at the U.N. 
working on this book and Rwanda came about. At the time, under 
a new initiative there were 19 nations signed up, contractually 
obligated to the U.N. to provide standby forces. If an 
emergency happened, the U.N. could just pick up the phone and 
call these nations. And these were nations that could provide 
very well-trained deployable forces, Great Britain and others.
    Well, the Canadian general in charge picked up the phone 
and called all 19 nations and got a dial tone at the other end 
of the line, because ultimately it is a voluntary exercise and, 
with Rwanda coming crashing down, every single nation 
contractually obligated to participate in the standby force 
arrangement just opted out.
    So in other words, you cannot tinker around your 
fundamental character and structure. It is rooted in the laws 
and the Charter of the U.N.
    The fourth point I will make on lessons learned is the 
organization cannot authoritatively recruit, train, equip, 
organize, or command and control significant military forces 
doing dangerous things because it does not have the legitimacy 
needed to do complex military operations in belligerent 
environments.
    The general lessons learned from operations like Somalia 
and Bosnia is: When the going gets tough in U.N. mission, the 
tough tend to go in different directions. So for instance, if 
the shooting really starts--when it really started in Somalia 
and people started getting killed, the Italian peacekeepers did 
not call New York, they called Rome. The French did not take 
their directions from the United Nations, they took their 
directions from Paris.
    People fall back onto more legitimate forms of command and 
control, ones that have the legal and administrative structure 
set up to handle these sorts of things. So that is an important 
point in those sorts of missions.
    On the other hand, these missions can be done, and I think 
that East Timor and Kosovo and perhaps the very beginning of 
the Somalia mission, where the U.S. led an international 
coalition, shows that alliances or coalitions of the willing 
that are led by a major military power that does have this 
legitimacy, they can provide the structure for multinational 
military operations.
    The U.N. itself I think is good at small, neutral, and 
passive operations in supportive political environments. But 
even then, as the U.N. recognizes over and over again, even 
then the blue helmets are hostage to the whimsy of their 
belligerents. So U.N. peacekeeping is a supporting act, it is 
not a lead role. It cannot force anybody into a course of 
action. It can only help those willing to help themselves. For 
this reason, many U.N. officials call it a self-help technique.
    So if we are thinking about in the U.S. asking the U.N. to 
do something in a situation like the Congo or Sierra Leone, we 
have to ask: Are the belligerents willing to take those steps? 
Are they prepared for self-help?
    I will just briefly go over some of these historical cycles 
and then conclude, so you can see where this is actually 
manifested and how it has really evolved. In 1948-49, the U.N. 
started with peacekeeping, two missions, one to Palestine and 
one to India-Pakistan. Ironically, both of these are still in 
operation. And it worked, it worked OK.
    So in 1960 the U.N. stood up a much larger, much more 
ambitious, much more militarily complex mission to the Congo, 
ultimately over 20,000 blue helmets. This mission turned out to 
be a real disaster. Over 234 peacekeepers were killed. The 
Secretary General was killed in the mission. And it ended up 
being what the U.N. calls its Vietnam.
    So, a little chastened by the experience, the U.N. 
retreated back into a more traditional formula, had some 
missions that worked well in the Sinai in the 1950's and 
1960's, and some others.
    By 1988, as you can see on the chart, U.N. peacekeeping--
this is the year the blue helmets won the Nobel Peace Prize. It 
was a pretty innocuous enterprise--5 missions, about 10,000 
blue helmets, a $230 million budget, as you know of which the 
U.S. then, as now, is obligated to pay about a third.
    But with the end of the cold war there were lots of new 
ideas. A lot of people said now, freed of the suffocating cold 
war dynamic, the U.N. could take on a much more central role in 
being an actual manager of serious military operations. And we 
tried it. We tried it in Bosnia, we tried it in Somalia, we 
tried it in Cambodia and some other places.
    But these were very different environments than something 
like military observers in Palestine. So as you can see on the 
chart, by 1993 we had some 80,000 blue helmets in 18 different 
missions, many of which were very complex missions, with a 
budget of $3.6 billion.
    Well, the story is well known. We were burned in Bosnia and 
Somalia and Rwanda and elsewhere, and by 1997 to 1999 the U.N. 
had retreated back to a little less than 15,000 blue helmets 
and the budget actually fell to under a billion in 1999.
    In 2001, I put some estimates on there, but if the U.N. 
does go to the authorized strength the Security Council has 
authorized in these new missions, this will add another 25,000 
or so blue helmets, to bring it up to above 40,000. It will 
bring the budget in my estimation to well up over $2 billion a 
year. And importantly, many of these missions will operate in 
unsupportive political environments, the exact kind of 
environments in which the U.N. rarely succeeds. So I think we 
need to go very carefully into this.
    I will conclude with a question which we always need to 
come back to: Whose hand is really on the throttle here? It is 
popular in the U.S. to think the U.N. is its own actor and 
decides where it wants to go and what it wants to do. But I 
think the irony really over the last episode, in 1993 to 1997, 
is that the U.S. and the U.N. Security Council really pushed 
the U.N. into a lot of these missions, and in many cases the 
U.N. was reluctant.
    In 1994 Boutros-Ghali was basically telling the Security 
Council: Do not give me anything more to do in Bosnia because 
we are doing it lousy as it is, do not add onto the plate. 
Boutros-Ghali also, as Ambassador Robert Oakley's memoirs 
showed, did not want the Somalia mission. He was an Egyptian, 
he knew the troubles in Somalia and he knew what it would take, 
and he really resisted the Somalia mission.
    So it was ironic that when President Clinton gave a speech 
in 1993 at the U.N. saying the U.N. needed to know when to say 
no, that it was the U.S. that kept saying yes for the U.N. and 
the administration kept adding onto it. The U.S. voted for or 
sponsored every single Russian resolution expanding the Bosnia 
mission for the U.N.
    So it really is U.S. policy that will drive what the U.N. 
is going to get involved in. The U.N. itself, I found in my 
studies, is not all that ambitious. In 1997, one of the 
peacekeeping officials said to me: ``We are in a bear market 
and we are happy about it,'' because they know what they cannot 
handle.
    But I think the Security Council and the U.S., being the 
most powerful member of the Security Council, sometimes tend to 
use the U.N. as an excuse rather than a strategy and shovel off 
onto it missions that the U.S. and its allies might not 
otherwise want to do, but that the U.N. is uniquely unsuited 
for. So I think we need to keep that in mind and in your 
dealings with the administration to discourage them from just 
dumping things on the U.N.'s plate and then blaming it when it 
fails, because there is just some things, especially those very 
complex military operations conducted in dangerous 
environments, which the U.N. should not be involved in 
managing.
    Thank you.
    [The prepared statement of Dr. Hillen follows:]

                 Prepared Statement of Dr. John Hillen

    Mr. Chairman, Senator Boxer, distinguished members of the sub-
committee, I thank you for the opportunity to testify today on a matter 
of great importance to the United States and the entire international 
community. I would ask that my full testimony is submitted for the 
record but I will make some short remarks here on the strategy of UN 
military operations--that is, the level at which the political and 
military dimensions of peacekeeping meet. In the course of my work I 
studied some 50 UN and other multinational peacekeeping and peace 
enforcement operations. The lessons learned from those missions give us 
a fairly good idea of the challenges of these missions and the 
institutional competence and capabilities of the UN itself.
    As the sub-committee is well aware, today we sit on the cusp of a 
periodic upswing in the size, character, and ambitions of UN 
peacekeeping operations. Since last fall the UN has mandated three 
large and complex peacekeeping operations--in East Timor, Sierra Leone, 
and the Democratic Republic of the Congo--in which the UN itself will 
direct significant military forces operating in some difficult 
environments. In addition, of course, there is the fairly new UN 
mission to Kosovo, but in that mission NATO is handling the military 
tasks while the UN restricts itself to policing, administrative, and 
other basic governmental functions.
    I say periodic upswing because a survey of the 52-year history of 
UN peacekeeping shows that it goes in cycles. I'd like briefly to 
discuss these cycles in order better to understand where we might be 
headed now. My study shows that UN peacekeeping goes through recurrent 
phases--and the pattern has been repeated several times in the past 
half-century. In the first phase small peacekeeping successes lead an 
emboldened international community to give the UN larger, more complex, 
and ambitious military operations in more belligerent environments. In 
the second phase these sorts of operations quickly overwhelm the 
capabilities of the UN itself, which tries unsuccessfully to improvise 
in operations for which it has no institutional structure, 
authoritative management systems, or military competency. In the third 
phase, burned and discredited, the UN pulls back to a more traditional 
peacekeeping role that suits the institution. Finally, with time 
healing some of these wounds and challenges to the international 
community continuing to mount, short memories compel the international 
community to thrust the UN back onto the international security stage 
in a more ambitious and central role than before.
    The lessons of each of these cycles are clear. The UN itself has 
never had, nor was it ever intended to have, the authority, 
institutions, and procedures needed to successfully manage complex 
military operations in dangerous environments. Conversely, the UN--the 
world's most accepted honest broker--has exactly the characteristics 
needed to manage some peacekeeping operations undertaken in supportive 
political environments. Even then, the UN has struggled to competently 
direct even small and innocuous operations. But the real problems for 
all involved have come when the international community puts the UN in 
a military role for which is neither politically suited nor 
strategically structured. My book goes into great detail on exactly why 
the UN has shown--in almost 50 missions--that there are strict limits 
to its military role. Quite simply, the UN should not be in the 
business of running serious military operations--it has neither the 
legitimacy, authority, nor systems of accountability needed to build 
the means necessary to direct significant military forces.
    Authoritative, specifically structured, and well-rehearsed military 
alliances or coalitions of the willing better manage multinational 
military operations of the sort we've recently seen in the former 
Yugoslavia, Somalia, and Africa led by a major military power. These 
sorts of organizations are specifically structured--legally, 
politically, and organizationally--to direct complex and coercive 
military operations in uncertain environments. The model we've seen in 
Kosovo and East Timor recently may work best. An alliance like NATO or 
a multinational coalition such as that Australia led in East Timor can 
do the heavy lifting before turning it over to the UN.
    Mr. Chairman, let me briefly summarize how these cycles have 
occurred and in particular the U.S. and UN role in them. In my full 
testimony I have the complete story of the most recent cycle--that of 
Somalia and Bosnia--and perhaps in questioning we can discern from 
those episodes lessons for these new missions on the horizon.
    In 1948/49, UN peacekeeping started with relatively innocuous 
missions to Palestine and India-Pakistan--missions which, we should 
note, are still in existence today. A largely successful peacekeeping 
mission in the Sinai in the 1950's encouraged the UN to mount a very 
ambitious mission to the Congo in 1960. That mission ended very badly, 
taking the life of some 234 Blue Helmets and the Secretary-General. It 
is still referred to by many as ``the UN's Vietnam.''
    Chastened, the international community returned to what was 
emerging as a more tried and true formula for UN peacekeeping. Small, 
lightly armed, and relatively unambitious missions deployed after a 
peace was concluded. These Blue Helmets did best when they followed the 
so-called principles of peacekeeping: strict neutrality, passive 
military operations, and the use of force only in self-defense. 
Importantly, the UN recognized that the Blue Helmets were only 
supporting players, there to help belligerents that had agreed to the 
UN presence. UN peacekeeping was never intended to be a coercive 
military instrument--one that could force a solution on one side or 
another to a conflict. This role for the UN, which is not specifically 
referred to in the Charter (nor envisaged by the UN's founders) evolved 
over time--the nature of the technique (peacekeeping) uniquely suiting 
the character and management abilities of the institution (the UN).
    By late 1980's, the UN's ability to manage a small number of 
peacekeeping operations was not in doubt. In fact, in 1988 the Blue 
Helmets were awarded the Nobel Peace Prize. We should remember that in 
1988 UN peacekeeping represented a rather small and unambitious 
enterprise in the grand scheme of global security. In January of 1988 
the UN was managing less than 10,000 troops in five long-running 
peacekeeping missions and on an annual peacekeeping budget of some $230 
million. The U.S. then, as now, picked up about 1/3rd the cost of those 
missions.
    Things changed quickly though after the fall of the Berlin Wall. 
The thawing of the Cold War and the unprecedented cooperation shown by 
the Security Council during the Persian Gulf War presaged a new era of 
UN-sponsored collective security. The enthusiasm for more and newer 
forms of UN peacekeeping was quickly manifested in a series of 
ambitious, expensive, dangerous, and militarily complex missions. By 
1993, the UN was managing almost 80,000 peacekeepers in eighteen 
different operations, including large and heavily armed missions to 
Cambodia, Somalia, and the former Yugoslavia. The annual peacekeeping 
budget grew to $3.6 billion.
    Less than two years on from that peak however, UN peacekeeping had 
been thoroughly discredited. The Blue Helmets' failure to halt 
political violence in Somalia, Rwanda, Haiti, and the former Yugoslavia 
was reinforced by images of peacekeepers held hostage in Bosnia, gunned 
down in Mogadishu, or butchered along with thousands in Kigali. The UN 
quickly retreated--turning a nascent peacekeeping mission in Haiti over 
to a U.S.-led coalition, passing Bosnia off to NATO, and leaving 
Somalia to slip back into chaos. By 1997, UN peacekeeping was down to a 
more manageable level of some 15,000 Blue Helmets operating in more 
mundane environments and on a budget of around $1.2 billion. All has 
been relatively quiet on the UN front until this past fall, when 
Kosovo, East Timor, Sierra Leone, and the Congo sprang onto the scene. 
If those missions go forward as planned, they will add over 25,000 Blue 
Helmets and some $700 million--$1 billion in costs to the UN's plate. 
More important, several of these new missions, especially Sierra Leone 
and the Congo, look certain to take place in very uncertain and 
belligerent environments--the sort in which the UN rarely if ever 
succeeds.
    Mr. Chairman, a word on the U.S. role in this latest cycle--the 
rise and fall of UN peacekeeping in the six years after the end of the 
Cold War. This message I believe is critical for the U.S. policy 
community because our own actions drive these episodes as much as 
anything else. More coherence in U.S. policy could have prevented many 
of the recent disasters in places such as Somalia and Bosnia. While a 
broad range of observers drew the same basic conclusion from 
peacekeeping's recent past--that the UN should not be in the business 
of managing complex, dangerous, and ambitious military operations--most 
are split on how it happened and whom to blame. Conservatives in the 
United States charge the UN itself and especially a fiendishly 
ambitious Boutros Boutros-Ghali who tried openly to accrue more and 
more military legitimacy and power for the UN itself. Liberal 
internationalists blame a parochial U.S. Congress that pulled the U.S. 
out of Somalia at the first sign of trouble, and is now holding 
America's UN dues hostage to its provincial agenda.
    Both views are off base. Ironically, those who put UN peacekeeping 
through the wringer and hung the organization and its last Secretary-
General out to dry were those American internationalists most likely to 
promote a larger collective security role for the United Nations. Over 
the past seven years, American officials sought for the UN a much 
greater role in international security affairs. But even though they 
were philosophically amenable to that goal, they choose to propel the 
UN into uncharted waters more out of political expediency rather than 
as a carefully crafted manifestation of their predisposition towards 
collective security. In many cases a new role for the UN was not so 
much a matter of policy, but a way of avoiding hard policy decisions 
such as those concerning the former Yugoslavia and Somalia. In essence, 
we used the UN as an excuse, not a strategy.
    Either way, American officials, especially in the first Clinton 
administration, pushed a reluctant UN into much greater military roles 
than it could hope to handle. Once its failures were manifest, the same 
officials joined in the conventional wisdom that the UN itself ``tried 
to do too much.'' Because of this, any post-Cold War ``advances'' in 
collective security were negated by those very internationalists who 
were so keen to champion the UN. As Paul Kennedy and Bruce Russett 
warned, UN operations such as those to Bosnia and Somalia ``far exceed 
the capabilities of the system as it is now constituted, and they 
threaten to overwhelm the United Nations and discredit it, perhaps 
forever, even in the eyes of its warmest supporters.'' What they did 
not consider was that some of the UN's ``warmest supporters'' were 
those who were most responsible for putting it in desperate straits in 
the first place.
                           patterns of abuse
    Advocates of collective security were almost giddy in the months 
immediately following the Gulf War. As David Henrickson noted, the end 
of the Cold War and the Security Council's role in the Gulf War ``have 
produced an unprecedented situation in international society. They have 
persuaded many observers that we stand today at a critical juncture, 
one at which the promise of collective security, working through the 
mechanism of the United Nations, might at last be realized.'' Think 
tanks, conferences, workshops, and task-force reports trumpeting a 
proactive military role for the UN proliferated. In January 1992, the 
first every Security Council summit declared that ``the world now has 
the best chance of achieving international peace and security since the 
foundation of the UN.'' The heads-of-state asked Secretary General 
Boutros-Ghali to prepare a report on steps the UN could take to fulfill 
their expectations of a more active military role.
    In Boutros-Ghali's subsequent ``An Agenda for Peace,'' he outlined 
a series of proposals that could take the UN well beyond its 
traditional military role of classic peacekeeping. The Secretary-
General called not only for combat units constituted under the long 
moribund Article 43 of the UN Charter, but for ``peace-enforcement'' 
units ``warranted as a provisional measure under Article 40 of the 
Charter.'' Although these were largely theoretical and untested ideas, 
by the time they were published in July 1992, the Security Council had 
already implemented a similar agenda. A few months prior to ``An Agenda 
for Peace,'' large and ambitious UN missions to the former Yugoslavia 
and Cambodia were already approved and underway.
    This initial episode reflected a pattern that would develop over 
the next several years. The UN, many times reluctantly so, would be 
thrust into an ambitious and dangerous series of missions and 
operations by a Security Council that was enthusiastic about new and 
enlarged mandates for UN peacekeepers--but not so keen on providing the 
support necessary to make them a success. In 1992, while the Secretary-
General was (at the request of the world's most powerful leaders) 
preparing a draft report on possible new departures in peacekeeping, a 
series of international crises plunged the organization into what UN 
official Shashi Tharoor called ``a dizzying series of peacekeeping 
operations that bore little or no resemblance in size, complexity, and 
function to those that had borne the peacekeeping label in the past.''
    In the former Yugoslavia, it soon became painfully obvious that 
despite the deployment of almost 40,000 combat troops, the UN was in 
over its head. Among American leaders, it was fashionable in both 
political parties to bemoan the ineffectiveness of the UN peacekeepers. 
This America was as responsible for what the UN was attempting to do in 
the former Yugoslavia as any other state or the organization itself. 
Between September 1991 and January 1996, the Security Council passed 89 
resolutions relating to the situation in the former Yugoslavia, of 
which the United States sponsored one-third. While Russia vetoed one 
resolution and joined China in abstaining on many others, the United 
States voted for all 89 to include those twenty resolutions that 
expanded the mandate or size of the UN peacekeeping mission in the 
Balkans.
    Far from the notion that the UN was pulling the international 
community into Bosnia, the U.S.-led Security Council was pushing a 
reluctant UN even further into a series of missions and mandates it 
could not hope to accomplish. Boutros-Ghali warned the members of the 
Security Council that ``the steady accretion of mandates from the 
Security Council has transformed the nature of UNPROFOR's mission to 
Bosnia-Herzegovina and highlighted certain implicit contradictions. . . 
. The proliferation of resolutions and mandates has complicated the 
role of the Force.'' His Under Secretary-General for peacekeeping, Kofi 
Annan, was more direct. Attempts to further expand the challenging 
series of missions being given to the UN were ``building on sand.''
    This did not seem to deter the U.S.-led Security Council however, 
which was happy to expand the mission further while volunteering few 
additional resources to the force in Bosnia. A June 1993 episode 
demonstrating this pattern is instructive. Then, the UN field commander 
estimated he would need some 34,000 more peacekeepers to protect both 
humanitarian aid convoys and safe areas in Bosnia. The Security 
Council, having given him these missions in previous resolutions, 
instead approved a ``light option'' of 7,600 troops, of whom only 5,000 
had deployed to Bosnia some nine months later. Quitting his post in 
disgust, the Belgian general in command remarked ``I don't read the 
Security Council resolutions anymore because they don't help me.''
    The Clinton administration, which had shown unbounded enthusiasm 
for UN peacekeeping in the first months of the administration, began to 
sour slightly on its utility by September 1993. By then Ambassador 
Madeleine Albright's doctrine of ``assertive multilateralism'' had 
given way to President Clinton beseeching the UN General Assembly to 
know ``when to say no.'' But it was the United States and its allies on 
the Security Council who kept saying yes for the United Nations. Even 
after that speech, Mrs. Albright voted for all five subsequent 
resolutions (and sponsored two) that again expanded the size or mandate 
of the UN peacekeeping mission to the former Yugoslavia. All the while, 
until the fall of 1995, the U.S. steadfastly resisted participating in 
the UN mission or intervening itself with military forces through some 
other forum.
    In Somalia, there was an even more direct pattern. There the United 
States pushed an unwilling UN into a hugely ambitious nation-building 
mission. In its waning days the Bush administration had put together a 
U.S.-led coalition that intervened to ameliorate the man-made famine in 
Somalia. From the very beginning of the mission it had been the 
intention of the U.S. to turn the operation over to a UN peacekeeping 
force. Conversely, Boutros Boutros-Ghali, an Egyptian well acquainted 
with the challenge of nation-building in Somalia, wanted no part of the 
mission for the UN. Ambassador Robert Oakley, the U.S. envoy to 
Somalia, noted that in a meeting with the Secretary-General and his 
assistants on 1 December 1992, ``the top UN officials rejected the idea 
that the U.S. initiative should eventually become a UN peacekeeping 
operation.''
    The U.S. kept up the pressure on the Secretary-General, who was 
powerless to resist the idea if it gained momentum in the Security 
Council. The debate resembled what Chester Crocker called ``bargaining 
in a bazaar'' and ``raged out of public view'' while the U.S. and the 
UN negotiated over the follow-on mission. For his part, Boutros-Ghali 
wanted the U.S.-led coalition to accomplish a series of ambitious tasks 
before the UN would take over. These included the establishment of a 
reliable cease-fire, the control of all heavy weapons, the disarming of 
lawless factions, and the establishment of a new Somali police force. 
For its part, the United States just wanted to leave Somalia as soon as 
possible. It was now time to put assertive multilateralism to the test. 
Madeline Albright shrugged off the challenge to the world body and 
wrote that the difficulties that the UN was bound to encounter in 
Somalia were ``symptomatic of the complexity of mounting international 
nation-building operations that included a military component.''
    The debate, with Boutros-Ghali resisting up to the last, 
effectively ended on 26 March 1993 with the passage of Security Council 
resolution 814 establishing a new UN operation in Somalia. The 
resolution authorized, for the first time, Chapter VII enforcement 
authority for a UN-managed force. More importantly, the resolution 
greatly expanded the mandate of the UN to well beyond what the American 
force had accomplished. Former Ambassador T. Frank Crigler called the 
UN mandate a ``bolder and broader operation intended to tackle 
underlying social, political, and economic problems and to put Somalia 
back on its feet as a nation.'' In the meantime, the U.S. withdrew its 
heavily armed 25,000 troop force and turned the baton over to a lightly 
armed and still arriving UN force. The transition, set for early May 
1993, was so rushed that on the day the UN took command its staff was 
at only 30 percent of its intended strength. The undermanned and 
underequipped UN force was left holding a bag not even of its own 
making.
    The travails of the UN mission in Somalia need no further 
elucidation here. Suffice it to say that the U.S., although no longer a 
direct player in Somalia, continued to lead the Security Council in 
piling new mandates on the UN mission there. The most consequential of 
these was the mandate to apprehend those Somali's responsible for the 
June 1993 killing of 24 Pakistani peacekeepers. The U.S. further 
complicated this explosive new mission with an aggressive campaign of 
disarmament capped by the deployment of a special operations task force 
that was to lead the manhunt for Mohammed Farah Aideed. This task force 
was not under UN command in any way and when it became engaged in the 
tragic Mogadishu street battle of 3 October 1993 the UN commanders knew 
nothing of it until the shooting started. Even MG Thomas Montgomery, 
the American commander and deputy UN commander, was told of the 
operation only 40 minutes before its launch. A U.S. military report 
afterward noted that the principal command problems of the UN mission 
in Somalia were ``imposed on the U.S. by itself.''
    This fact, that the UN was not involved in the deaths of eighteen 
American soldiers in Mogadishu, was buried by the administration. Even 
more cynically, several top-level administration officials charged in 
1995 with selling the Dayton Peace Accords to a skeptical U.S. public 
constantly noted that U.S. soldiers in the NATO mission to Bosnia would 
not be in danger because the UN would not be in command, as it was in 
Somalia. Few single events have been as damaging to the UN's reputation 
with the Congress and American public as the continued perception that 
it was the United Nations that was responsible for the disaster in 
Somalia. Not only has this myth been left to fester, it was indirectly 
used, along with the UN's many other U.S.-initiated problems, to call 
for Boutros Boutros-Ghali's head during the 1996 Presidential campaign. 
Then, for the first time in several years, the U.S. used its veto to 
stand alone against the Security Council and bring down the Secretary-
General who had resisted the U.S.-led events that so discredited him 
and his organization.
                     conclusion--friends like these
    After those particular episodes, UN peacekeeping is now happy to 
be, as a UN official recently told me, in ``a bear market.'' Congress 
and the administration are happy as well with a low profile for UN 
military operations--especially as Clinton officials try to get 
Congress to pay America's share of the unprecedented peacekeeping debt. 
Fittingly, Madeleine Albright, as Secretary of State, is now chiefly 
responsible for convincing Congress to pay the bill that she is tacitly 
accountable for because of her votes during that busy time on the 
Security Council.
    Albright also played a central role as the official, more than any 
other in the Bush and Clinton administrations, who epitomized the keen 
hopes of liberal internationalists advocating a greater security role 
for the UN. In early 1993, her speeches were laced with talk of ``a 
renaissance for the United Nations'' and ensuring that ``the UN is 
equipped with a robust capacity to plan, organize, lead, and service 
peacekeeping activities.'' By 1994, however, after it because obvious 
that the inherent limitations of a large multinational organization 
would not allow it effectively to manage complex military operations, 
Albright stated that ``the UN has not yet demonstrated the ability to 
respond effectively when the risk of combat is high and the level of 
local cooperation is low.'' Left unsaid was that the U.S., more than 
any other member state, was responsible for giving the UN much to do in 
Somalia and Bosnia and little to do it with. It appeared, as Harvey 
Sicherman has written, that ``the assertive multilateralists of 1992-3 
placed more weight upon the UN than it could bear, while ignoring NATO 
and other regional coalitions.''
    Regional coalitions or more narrowly focused military alliances 
were ignored both for reasons of philosophy and political expediency. 
Philosophically, legitimacy could be gained for collective security in 
general and the UN in particular by having it directly manage the more 
dynamic military operations of the post-Cold War era. Thomas Weiss 
typified this school of thought and wrote, ``the UN is the logical 
convenor of future international military operations. Rhetoric about 
regional organizations risks slowing down or even making impossible 
more timely and vigorous action by the UN, the one organization most 
likely to fulfill adequately the role of regional conflict manager.'' 
This appealed in particular to the officials of the Clinton 
administration who had developed and published many similar thoughts 
while in academia or the think-tank world.
    But for the most part the U.S. promoted unprecedented UN missions 
to conflicts such as Bosnia and Somalia because they did not want the 
U.S. or its alliances to be principally responsible for difficult and 
protracted military operations in areas of limited interest. As Shashi 
Tharoor wrote, ``it is sometimes argued that the peacekeeping 
deployment to Bosnia-Herzegovina reflected not so much a policy as the 
absence of policy; that [UN] peacekeeping responds to the need to `do 
something' when policy makers are not prepared to expend the political, 
military, and financial resources required to achieve the outcome that 
the press and opinion leaders are clamoring for.''
    The final irony is that the UN's adventurous new role in 1993-1995 
and peacekeeping's subsequent demise came about not necessarily by the 
well intentioned but unsupported design of collective security's most 
ardent proponents. Instead, it came about by default as these same 
supporters thrust upon the UN difficult missions they would rather not 
have addressed more directly. Given the recent and renewed enthusiasm 
for more missions of the sort that will greatly challenge the UN, the 
international community would do well to keep this lesson in mind.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Grams. Thank you very much, Mr. Hillen.
    Mr. Bolton, good morning.

STATEMENT OF HON. JOHN BOLTON, SENIOR VICE PRESIDENT, AMERICAN 
ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH, WASHINGTON, DC

    Ambassador Bolton. Thank you very much, Mr. Chairman. It is 
a pleasure to be here today. This is an important subject and I 
am very grateful to you for scheduling a hearing on it.
    I think the subject of U.N. peacekeeping in policy terms is 
actually pretty simple from the American point of view and 
would not be terribly debatable but for what has happened over 
the last 7 years. I think American policy on U.N. peacekeeping 
should be based on deciding when peacekeeping is in America's 
national interest. We should have a coherent policy of 
deciding, on a case by case basis, what those circumstances are 
and then formulating U.N. peacekeeping strategies that protect 
our interests.
    This is really nothing more than recognizing that the 
United Nations can be a useful instrument for American foreign 
policy. In some cases it may not be. It depends. It is simply 
an instrument. It is certainly not anything to approach with 
theological devotion, which is the way some people do it.
    I think that the administration's peacekeeping policy, 
despite its rhetoric at times, has never deviated in substance 
from where it was at the very beginning, when the 
administration asserted that what it called ``assertive 
multilateralism'' was going to guide its foreign policy. I 
think PDD-71 is really the policy they wish they had written 
when PDD-25 came out.
    The reason there are no ``entry strategies,'' as you term 
it, in this administration is that they do not feel they need 
any. And the recent spike in peacekeeping activities, which GAO 
now estimates for the 2000-2001 biennium will total about $3.6 
billion--or about $900 million for a U.S. share of 25 percent--
just shows that, consistent with John Hillen's chart, that this 
is once again a growth industry.
    Now, it seems to me that traditional U.N. peacekeeping, 
where it has been successful, has rested on three fundamental 
principles: First, that all of the parties to the particular 
dispute agree to a U.N. role and agree on what that role will 
be; second, that in performing its responsibilities the United 
Nations is neutral as among the parties; and third, that any 
U.N.'s resort to force comes only in the very limited 
circumstance of self-defense.
    Now, in pre-1990 U.N. peacekeeping activities where the 
U.N. has been successful, those are the conditions they have 
obtained. Some would say that that really gives the U.N. a very 
circumscribed, very limited role, and in a sense that is 
correct. But what those principles recognize is that, 
fundamentally, a successful peacekeeping operations depends on 
political factors. It depends fundamentally on the agreement of 
the parties to the dispute on an interim or ultimate conclusion 
to their dispute.
    It may well be that the U.N. is only a political fig leaf 
for a disengagement or a truce, but it can be an important fig 
leaf when it recognizes the limitations.
    I think what happened--after, particularly after the 
Persian Gulf War, coinciding with the end of the cold war--was 
that there was a massive misreading of what those two events 
meant for the United Nations. It created a wave of euphoria 
about the potential for the United Nations that at least some 
people did not think was justified at the time, and in 
hindsight I think it clearly was not justified.
    Just as one example, I am off tomorrow to rendezvous with 
former Secretary of State Baker as we travel to the Western 
Sahara to make yet another effort to have a referendum so that 
the people of the Western Sahara can decide whether they want 
independence or union with Morocco. We set up that peacekeeping 
operation, frankly, as part of the post-Gulf War euphoria in 
1991. It is 9 years later. We still do not have a referendum. 
It is a classic case where we really do not have consent of the 
parties.
    In addition to misreading the post-Gulf War context, the 
United Nations has found itself increasingly inserted in intra-
national conflicts, conflicts which in my view do not pose a 
real threat to, in the words of the Charter, ``international 
peace and security.'' I think this is very important.
    ``International peace and security,'' as it is written in 
articles 24 and 39 and chapter 7, generally is a jurisdictional 
limit on the United Nations. The framers of the Charter, 
principally Americans, wanted that jurisdictional limit. And 
although we have been in the past 7 or 8 years, probably more 
responsible than anybody in breaching those jurisdictional 
limits, it is a mistake.
    Just as in any broad quasi-constitutional interpretation, 
once you begin to breach the jurisdictional limits in 
circumstances that you find beneficial to you, you find it 
nearly impossible not to see them breached elsewhere.
    I think these difficulties that I have described have shown 
up in several contexts, including Somalia, where I think we 
have been over the ground in several hearings. I think Somalia 
is the textbook demonstration of assertive multilateralism at 
work. It was the first and best or worst, depending on your 
perspective, example of nation-building.
    The reason that political support for Somalia collapsed, as 
members of the Senate will well remember, came after the 
tragedy in Mogadishu: the Secretary of State and the Secretary 
of Defense came and addressed an unprecedented joint meeting of 
the House and the Senate in the room under the steps and they 
were asked to justify why those young Americans had lost their 
lives. I have heard members of this committee who were present 
say publicly and privately that there was no justification; 
Congress saw that and support collapsed, not because of a 
tragic but relatively small number of casualties, but because 
the administration could not defend its policy.
    Partly, I think the lesson they learned from that was the 
limits of the United Nations, and that is one reason why in the 
Dayton Agreement and post-Dayton Bosnia the U.N.'s role has 
been so limited and one reason why the Security Council did not 
receive any visitors in the run-up to the air campaign over 
Yugoslavia.
    But now, even after these lessons, the U.N. has a 
predominant role in a kind of quasi-peacekeeping operation in 
Kosovo that has all the earmarks of complete disaster. Senior 
U.N. official Jiri Dienstbier, former Foreign Minister of 
Czechoslovakia and now the U.N.'s senior Human Rights 
Representative for Kosovo, said just a couple of weeks ago: 
``The present situation in Kosovo just confirms the total 
failure to achieve the goals of the operation.''
    That is one of the most remarkably candid statements I have 
ever heard from a U.N. official. But it represents that when 
you do not have consent of the parties, as you manifestly do 
not in Kosovo, the U.N. is not likely to succeed.
    Recently, we have seen in the case of the observer force 
approved for the Congo all of the earmarks of another failure. 
Forty years after the first failure of a U.N. peacekeeping 
operation in Congo, I believe, sadly, that we are about to see 
another. We do not have consent of the parties or anything like 
it. Bernard Miyet, U.N. Under Secretary General for 
Peacekeeping, briefed the Security Council last week, 
principally on President Kabila's total lack of cooperation. 
The U.N. mediator, Sir Katumi Mazeri, who was in Congo at about 
the same time, could not get freedom of access to travel 
around.
    I think that what we are going to find is that the photo op 
diplomacy of Security Council meetings in January have led the 
United Nations into another potentially disastrous failure. 
Really, the Congo is an example of this idea that is loose in 
the Security Council that it cannot be a real crisis unless 
there is a peacekeeping force. That has the cart before the 
horse. The political reality has to be suitable first before 
the U.N. peacekeepers can be deployed successfully, whether 
military or civilian.
    I think the same thing is true in the Sierra Leone 
operation. Michael O'Hanlon said we do not really know very 
much about the situation on the ground. That is exactly the 
kind of circumstance where you do not put a force in place, 
because in fact the force can become part of the problem, can 
become a target, as indeed we did in Somalia or as Colonel 
Higgins, who was detailed to UNTSO, the U.N. Truce Supervisory 
Organization in Jerusalem, became a target.
    The key here is that, instead of rushing willy nilly toward 
the creation of peacekeeping operations, we have to have the 
political dynamics set first.
    Now, I have identified in the testimony and I will not go 
over here a number of direct consequences for the United States 
and its interests in peacekeeping issues--budget questions, 
very much of concern to the Congress; command and control 
issues, very much of concern for Americans when we are 
involved--that go to what I think is a central misconception 
about peacekeeping today in this administration. That is that 
actually peacekeeping, U.N. peacekeeping, is a cheap way for 
the United States to move toward foreign policy goals. Under 
the rubric of burden-sharing, it is said that actually this 
requires less from the United States than if we did it 
ourselves, which of course begs the question whether we ought 
to do it ourselves to begin with.
    It goes to the fundamental point that when we decide on 
peacekeeping operations we have not become platonic guardians 
to the world. We are still attempting to discern and implement 
a foreign policy, through the United Nations to be sure, but a 
foreign policy that is in fundamentally in America's national 
interest.
    I think that leads to the lessons and conclusions I would 
draw from our recent experience, that the administration has 
too often endorsed peacekeeping operations that do not impinge 
on legitimate American national interests. It does not 
therefore actually reduce burdens on the United States; it 
increases them and gets us further extended in situations than 
we would have been had the peacekeeping operation not been 
authorized.
    It also demonstrates why we need firmness, decisiveness, 
and consistency in foreign policy decisionmaking, particularly 
in defining this entry strategy. It is foolhardly to believe 
that other nations are going to do it for us. We have to do it.
    Finally, and I will conclude here, it is very clear that 
our rhetoric should not exceed our intentions and our 
capabilities. Contrary to the Secretary of State's comment, we 
are not the indispensable nation. We do not have to be involved 
everywhere. The whole world is not waiting for us to solve its 
problems or, if it is, it is not an invitation we should take 
up.
    Thank you again, Mr. Chairman. I appreciate the opportunity 
to be here. I look forward to your questions.
    [The prepared statement of Ambassador Bolton follows:]

               Prepared Statement of Hon. John R. Bolton

                        introduction and summary
    Mr. Chairman and Members of the Committee, it is a pleasure to 
appear today to testify on American policy toward United Nations 
peacekeeping. I have a written statement for the record that I will 
summarize, and I would be happy to answer any questions the Committee 
may have.
    I would like to address particularly the issue of when and where 
peacekeeping through the United Nations is actually in the national 
interests of the United States, how we decide on a case-by-case basis 
what those circumstances are, and, once that threshold question is 
answered, how we formulate a U.N. peacekeeping strategy that protects 
American interests. First, I will examine briefly the principles 
underlying traditional U.N. peacekeeping. Second, I describe the 
rationale for the expansion of ``peacekeeping'' into new and non-
traditional fields after the end of the Cold War, and third summarize 
three case studies to show the consequences. Fourth, I turn to the 
operational question of American interests directly implicated by U.N. 
peacekeeping, and discuss some lessons that can be drawn both from the 
historical record and from our contemporary experience.
                    i. traditional u.n. peacekeeping
    ``Traditional'' U.N. peacekeeping operations evolved when it became 
clear that the broad intention of the Framers of the U.N. Charter were 
rendered largely meaningless by the onset of the Cold War. U.N. 
involvement in international crises, far from being the central 
dispute-resolution mechanism envisioned by the Framers in Chapters VI 
and VII, became episodic and incidental to the main global 
confrontation between East and West. In part because of the 
extraordinarily limited dimensions within which U.N. peacekeeping was 
feasible, clear principles evolved to describe the elements necessary 
for successful U.N. operations.
    First and by far the most important criterion was that all of the 
relevant parties to a dispute had to agree to the participation of U.N. 
peacekeepers in monitoring, observing or policing a truce, cease fire, 
or disengagement of combatants. This agreement had to encompass not 
only the fact of U.N. involvement, but also the scope of its mission 
and the operational requirements for cariying out that mission. 
Moreover, any party could withdraw its consent at any time, at which 
point the U.N. force would withdraw. The classic example of revoking 
consent occurred in May, 1967, when Egypt insisted on the withdrawal of 
the U.N. Expeditionary Force (established after the Suez Canal Crisis 
of 1956) from its territory along the border with Israel. The Six Day 
War followed.
    Flowing from the principle of consent was the related notion that 
U.N. peacekeepers were neutral as among the parties to a conflict, not 
favoring one or another of them. It was understood to be elemental that 
the United Nations could not ``take sides'' in a conflict without 
itself becoming involved in the very situation it was trying to 
stabilize or resolve. Thus, U.N. peacekeepers had no right of 
enforcement, and their missions were deliberately non-coercive, not 
intended to compel any party to accept a particular settlement. U.N. 
rules of engagement, through long-established practice, provided for 
the use of force essentially only in self-defense. Because of the 
foregoing principles, and because they were never intended to serve as 
combat forces, U.N. peacekeepers were almost always only lightly armed, 
or unarmed, and they frequently depended on the cooperation of the 
parties to a dispute for logistical support or cooperation.
    One can agree or disagree about the relative successes of United 
Nations peacekeeping during the Cold War period, but on one point there 
can be no serious dispute: U.N. peacekeeping had evolved over the years 
as a highly stylized international device, adhering to the guidelines 
set out above, and was considered neither adventurous nor experimental 
by the five Permanent Members of the Security Council or the U.N. 
Secretariat.
    Successful implementation of United States policy objectives 
through the United Nations in areas as disparate as Namibia, 
Afghanistan, Central America and most notably the Persian Gulf Crisis 
of 1990-91 led many observers to believe that, by 1992, the U.N. was 
fully mature and capable of handling almost any assignment handed to 
it. Unfortunately, this reputation was not deserved, emerging as it did 
from a misreading of the lessons of the very successes which the U.N.'s 
strongest proponents urged in support of larger, more complex and more 
dangerous roles beyond traditional peacekeeping. Recent U.N. successes 
had in fact been derived from the exercise of firm, decisive American 
leadership within the Security Council, combined with the development 
of ``new thinking'' in Soviet foreign policy, in areas where there was 
a mutual advantage to cooperate.
                ii. beyond traditional u.n. peacekeeping
    Buoyed by the successes mentioned above, proponents of a larger 
dependence of American foreign policy on the United Nations, and of a 
larger role in world affairs generally for the U.N., urged expansion 
both in the frequency of U.N. military operations and in the dramatic 
transformation of these missions. ``Peace enforcement'' was the new 
watchword, embodying the idea that the U.N. could impose its designs on 
conflicting parties, using force as appropriate. Such missions were 
deemed not only feasible, but virtually required of the United Nations 
in what was once briefly described as the ``New World Order.'' ``Peace 
enforcement'' constituted a radical departure from traditional U.N. 
peacekeeping, but was often not recognized as such, or the differences 
were deliberately obscured. Indeed, in the most rarified of its 
versions, peace enforcement seemed almost like the vision of 1945 San 
Francisco recreated, as if the intervening forty-five-plus years simply 
had not happened.
    United Nations peace enforcement in any particular international 
crisis thus assumes that there is essentially no real ``peace'' to 
``keep.'' As such, it assumes that the parties do not necessarily 
consent to the deployment of U.N. forces, that the U.N. troops may well 
have to ``take sides'' militarily to accomplish their mission, that the 
rules of engagement will be suitably written for such eventualities, 
and that manpower, armament and other preparations will be made with 
the prospect--indeed, the likelihood--of combat in mind. It should also 
have been assumed that national forces contributed to U.N. peace 
enforcement operations would be trained and ready for such a role, but 
this key point was never actually realized.
    A further corollary of a peace enforcement mission is the 
realization that, once launched, and having taken sides, the U.N. may 
not be able to assume thereafter a neutral, peacekeeping mode at some 
future point. Indeed, Secretary General Boutros Boutros-Ghali 
recognized this point in his January, 1995, supplement to An Agenda for 
Peace, when he said ``Peace-keeping and the use of force (other than in 
self-defence) should be seen as alternative techniques and not as 
adjacent points on a continuum, permitting easy transition from one to 
the other.''
    When described bluntly, it becomes readily apparent that, until the 
Clinton Administration, the United Nations has never really engaged in 
a peace enforcement operation. Prior Security Council authorizations 
for the use of military force in Korea (1950) and the Persian Gulf 
(1990) were wholly unrelated to this concept, involving as they did the 
repelling of international aggression by coalitions of forces 
operationally under American--not U.N.--command. Thus, all of the 
confident predictions about the success of U.N. peace enforcement 
operations, and all of the willingness to insert U.N.-led troops into 
peace enforcement situations were based on no real-world experience 
whatever.
    Moreover, both traditional peacekeeping and the authorizations to 
use force in Korea and the Persian Gulf were pursuant to the Security 
Council's core mandate to preserve and protect international peace and 
security. Increasingly, the proponents of what the Clinton 
Administration called ``assertive multilateralism'' were projecting the 
United Nations into intranational, domestic disputes, not conflicts 
that truly threatened international peace and security. These internal 
controversies, often ethnic and religious in nature, frequently 
involving antipathies hundreds of years in the making, were undertaken 
by parties without the attributes of nation-states that could be 
members of the United Nations. Thus, in addition to the countless other 
complexities of peace enforcement operations, U.N. advocates were 
proposing to insert the U.N. into conflicts with which the organization 
had little or no real exposure.
           iii. case studies of recent u.n. peace operations
    For purposes of illustration, I would like to highlight three 
``peace operations'' that have been turning points in America's 
understanding of the capabilities and limits of the U.N. These cases 
highlight dramatically: (1) the fallacy of the ``burdensharing'' 
argument that the role and risks of the United States are reduced by 
U.N. involvement; and (2) the difficulties and dangers of embroiling 
the United States in peacekeeping operations that lack clear national 
interests.
A. Somalia
    In contemporary thinking about U.N. peacekeeping, no operation is 
more important in American eyes than Somalia. I have previously written 
about the Clinton Administration's dramatic transformation of President 
Bush's original humanitarian mission into an ill-defined effort at 
``nation building'' (``Wrong Turn in Somalia,'' Foreign Affairs, 
January/February, 1994), and I will not repeat that analysis here. The 
critical points, however, are that: (1) the U.N. operation did not 
constitute ``burdensharing'' for the United States to any meaningful 
degree, as the enthusiasts of ever-greater U.N. peacekeeping assert; 
and (2) the problem with Somalia was not so much the ``exit strategy'' 
as it was the Clinton Administration's ``entry strategy.''
    Comments since the Foreign Affairs article have supported its 
analysis. Former Senator Bill Bradley (D., N.J.), for example, said:

          ``This is not a problem of execution of policy. This is a 
        problem of formulation of policy. And the policy formulation 
        was ill-conceived, and it was open-ended and it was poorly 
        planned. And that is why we are in this fix now . . . in this 
        case, through a series of ad hoc decisions, we find ourselves 
        in this predicament.''

Former Congressman Lee Hamilton (D., Ind.) correctly observed that: 
``[t]he Somali experience will have a tremendous impact on a whole 
range of future problems. . . . In Congress, no one now wants to put 
troops in a dangerous area if they are not under United States' 
command. In any case, Congress will be very wary of approving this kind 
of operation.''
    Moreover, serious conceptual and command-and-control problems were 
associated with the Somalia operation, both politically and militarily. 
After the effective transition of responsibility from the U.S.-led 
Unified Task Force (``UNITAF'') to the second U.N. Operation in Somalia 
(``UNOSOM II''), there were really separate chains of command between 
the U.N. forces to New York, and from the American forces to 
Washington. Moreover, the mission of the U.S. forces (and the U.N. 
force generally) was not well defined, positioning them somewhere 
between being traditional peacekeepers and peace enforcers. The parties 
did not fully consent to the former role, and the U.S. forces' ability 
to assume the latter role was repeatedly curtailed by decisions made in 
Washington, such as restrictions on the amount and use of heavy weapons 
and armored vehicles.
    There is no question that differing command-and-control structures 
contributed to the confusion that led to the October 3, 1993, Mogadishu 
tragedy. American commanders were understandably reluctant to entrust 
their troops to foreign commanders with whom they shared little or no 
training, doctrine or experience. They correctly perceived that a U.N. 
command is not the same as a NATO command with a different membership. 
Nonetheless, American forces were in the same geographic space as 
United Nations forces at the same time, with unclear, overlapping and 
perhaps contradictory mandates from their political leadership. Whether 
better communications or clearer lines of authority could have averted 
the disaster can never be known, but, in any event, such concerns beg 
the larger question whether U.S. forces should have been permitted to 
be in such an ambiguous circumstance in the first place.
    U.N. forces were completely withdrawn from Somalia under the 
protection of heavily armed American troops. This finale is surely 
ironic, since it meant that the U.N. could neither effectively enter 
nor leave Somalia without critical U.S. assistance. Moreover, 
intelligence documents and classified U.S. files in Somalia may have 
been compromised before the U.N. withdrawal was completed. Although it 
is difficult to tell from a distance if real damage was done to the 
United States, the incident raises questions about the larger issue of 
intelligence sharing, either specifically military information or more 
general political information, with the UN.
B. Bosnia
    Events in Bosnia and Kosovo have been as disappointing to the 
international community, and as frustrating for defining the role of 
the United Nations in conflict resolution as any in the world. Much of 
the U.N.'s problem stems, ironically, from the decision of the Bush 
Administration to defer to Europe's desire to handle the disintegration 
of Yugoslavia in the first instance. When the situation began to 
uuravel in mid-1991, Jacques Delors, then President of the European 
Commission, said flatly: ``We do not interfere in American affairs. We 
hope they will have enough respect not to interfere in ours.'' It may 
well be that American acquiescence in Europe's demand sealed the fate 
of Bosnia beyond the possibility of subsequent diplomatic or military 
repair, so ineffectual and counterproductive were subsequent E.U. 
efforts. One important aspect of the decision to allow the Europeans to 
take the lead, although little understood at the time, was the 
elimination of NATO as a meaningful decision-making forum until well 
into the crisis.
    One result of early European failures, although by no means the 
last, was their desire to have the Security Council play a major role. 
The U.N.'s military involvement in former Yugoslavia began in March, 
1992, with Resolution 743's creation of the U.N. Protection Force 
(``UNPROFOR''), originally intended to help stabilize areas of conflict 
in heavily Serb-populated portions of Croatia where Serbian ``ethnic 
cleansing'' had first been launched. Neither side, at least initially, 
was terribly scrupulous about observing the agreement they had entered 
into, and the result was largely a traditional U.N. peacekeeping force 
that had no choice but to stand by while the violence continued. 
Despite complaints about UNPROFOR's ineffectiveness in Croatia, there 
were no significant calls, especially from the Europeans, to transform 
UNPROFOR into a peace enforcement operation. Nor did the Europeans 
suggest a non-U.N. force (from NATO or the Western European Union, for 
example) to prevent continued hostilities in Croatia.
    UNPROFOR's mandate was later extended to protect the distribution 
of humanitarian assistance in Bosnia, as the Serbian campaign to create 
a ``Greater Serbia'' continued unabated. The lightly armed U.N. 
peacekeepers could themselves hardly engage in combat, and, indeed, the 
Europeans vigorously rejected several efforts by President Bush to take 
a more muscular role. In part, the European reluctance stemmed from 
continuing internal differences within the European Community as to the 
proper political and military policies to pursue. When the Security 
Council, in Resolutions 770 and 776, finally authorized the use of 
force to assist the delivery of humanitarian assistance in Bosnia, 
European concerns for the safety of UNPROFOR troops rendered these 
Resolutions ineffective. Indeed, the central issue, for many, was 
whether a peacekeeping operation could effectively exist in the same 
space and at the same time with a military force whose mission was 
essentially ``peace enforcement.''
    Almost from the beginning of the humanitarian relief effort in 
Bosnia, American logistical, communications and other support was 
critical. Working with the U.N. High Commissioner for Refugees and 
other U.N. agencies, non-governmental organizations, and local civilian 
authorities, the involvement of U.S. personnel has undoubtedly saved 
numerous lives throughout former Yugoslavia. Direct American military 
participation in UNPROFOR in Bosnia, as such, however, was rejected 
very early on by the Bosnian Serbs. Pursuant to standard U.N. 
peacekeeping procedures, because the consent of all of the parties for 
U.S. participation was lacking, the Secretariat declined to ask for a 
contribution of U.S. forces to UNPROFOR. The close working relationship 
of U.S. and U.N. personnel in the humanitarian effort, however, shows 
that the distinction can readily be blurred, and could cause 
operational or political difficulties in the future.
    One early Clinton Administration military plan, known as ``lift and 
strike,'' would have ended the weapons embargo (originally adopted in 
Resolution 713 in September, 1991) as applied against the Bosnian 
government, and authorized the use of air strikes against threatening 
Serbian deployments and positions. The Administration's ``lift and 
strike'' option was rejected by the NATO allies, especially Great 
Britain and France, in large measure because they feared the 
consequences for their soldiers participating in UNPROFOR in Bosnia.
    Ironically, in early 1994, it was the Europeans, led by France, who 
pushed for NATO involvement in support of yet another E.U. peace plan, 
and for NATO military enforcement of Security Council resolutions. This 
time, it was Secretary of State Warren Christopher who argued that 
military intervention was ``a decision with heavy consequences,'' that 
could interfere with ongoing humanitarian operations. In yet another 
reversal, however, the Administration joined other NATO members at the 
January NATO summit to endorse air strikes to ``prevent the 
strangulation of Sarajevo'' and other Bosnian enclaves. Even then, 
however, Prime Minister Jean Chretien of Canada remained publicly 
skeptical that air strikes were needed.
    At the same time, the U.N. chain of command on the ground in former 
Yugoslavia seemed to be coming unstuck. Press reports indicated that 
the top U.N. commander, General Jean Cot of France (the largest troop 
contributor to UNPROFOR), was defying civilian Secretariat officials in 
New York. Cot had apparently requested that he be delegated authority 
to call in NATO air strikes, which request had been refused by 
Secretary General Boutros Boutros-Ghali, who wanted to make such 
decisions himself. Cot reportedly intended to open his own channel of 
communications directly to the Security Council. Subsequently, Boutros-
Ghali demanded that France recall Cot, which it did, and informed the 
Security Council on January 19, 1994, that he was opposed to NATO air 
strikes, on the strong advice of Yasushi Akashi, his representative in 
the Balkan region. Cot's views on air strikes were also supported by 
Belgian Lieutenant General Francois Briquemont, commander of UNPROFOR 
troops in Bosnia, who said ``[w]hat we are doing here is incredible, 
for us coming from NATO.''
    In what seemed to be a dizzying series of reversals of positions, 
the U.S., the E.U. and the U.N. Secretary General shifted positions 
several times more both on air strikes and enforcement of no-fly 
restrictions against the Serbs, who had authority to authorize military 
actions, and under what circumstances they should be requested. Even 
when partially successful, such as the February 9, 1994, decision to 
compel the Bosnian Serbs to remove their heavy artillery from around 
Sarajevo, NATO efforts were complicated by Russian opposition. Deputy 
Foreign Minister Anatoly Adamisbin was said to the press ``[t]his is 
not NATO's business. It is the job of the U.N.''
    The downing, on February 28, 1994, of four Bosnian Serb planes, 
while historic as NATO's first actual use of force, did nothing to 
deter the Serbs from continuing their sieges of cities such as Gorazde. 
In another historical milestone (first use of NATO force against ground 
troops), two minor air strikes against Serb positions around Goradze 
were launched. The Serbs were again undeterred, overrunning all but the 
very center of the city before finally agreeing to a cease-fire. 
Accounts of similar confusion of political goals, tactics, leaders 
could go on and on. Here, it is important to stress that continuing 
confusion at the political level made military planning, and especially 
coordination between ``NATO'' forces and ``U.N.'' forces in Bosnia 
especially difficult. This confusion must have been especially 
frustrating to NATO forces in UNPROFOR, since the British and the 
French had tried since 1992 to impose something like NATO command-and-
control structures at least in their own respective aspects of 
UNPROFOR's mission.
    The Bosnia experience was so unsettling even to the Clinton 
Administration that it contributed to the deliberate minimization of 
the U.N. role during the post-Dayton phase of the Bosnia conflict, and 
to the overall handling of the Kosovo crisis. And yet, despite the 
lessons of Somalia and pre-Dayton Bosnia, the United Nations was given 
a leading role in the post-war occupation and attempted reconstruction 
and reconciliation of both Kosovo that ignored virtually everything 
that was learned earlier. Efforts at reconciliation between Serbs and 
Kosovar Albanians appear to be progressing no further with the United 
Nations presence than without it, and, indeed, Bosnia is still 
portioned de facto, and may well become so de jure with the passage of 
time.
    U.N. Ambassador Richard Holbrooke has repeatedly declared--and has 
so testified before this Committee--that the U.N.'s performance in 
Kosovo is potentially dispositive of how the United States views the 
United Nations as a whole for years to come. No one can be encouraged 
by the record to date.
    In fact, only last month, the U.N. official responsible for human 
rights in the former Yugoslavia, Jiri Dienstbier, said unambiguously: 
``The present situation in Kosovo just confirms the total failure to 
achieve the goals of the operation.'' Dienstbier, former Foreign 
Minister of the Czech Republic, was described by Agence France-Presse 
in Belgrade as saying that ``the main problem for the U.N. 
administration in the disputed province and the NATO-led KFOR 
peacekeeping force was that their mission had no clearly defined aims, 
adding that no one on the international scene seemed ready to provide 
one.'' Rarely have U.N. officials spoken so candidly in public about 
the organization's failures in an ongoing operation. One is struck by 
how corroborative Mr. Dienstbier's observations are to the basic 
problem of inadequate ``entry strategies'' in the creation of U.N. 
``peacekeeping'' operations generally.
C. The Congo
    The prospect of deploying another United Nations peacekeeping force 
in the Congo, forty years from the first ill-fated operation there, 
should have given the Security Council substantial pause. Following 
eighteen months of confused and irregular warfare throughout the 
``Democratic Republic of Congo,'' leaders of seven African nations met 
in New York in late January to discuss how to bring peace to this 
endlessly troubled region.
    Rebels in eastern Congo, who in May, 1997, helped overthrow former 
Congo (then Zaire) President Mobutu Sese Seko and install current 
President Laurent Kabila, turned against him shortly thereafter, 
initiating the renewed conflict. Hutu Interahamwe fighters, driven into 
the Congo by Rwandan and Burundian Tutsi forces (representing the 
victims of earlier mass-killings by Hutus), are still armed and active, 
largely in support of Kabila. Although national leaders signed a July, 
1999, agreement in Lusaka, Zambia, none of the rebel factions 
(supported politically and militarily by several neighboring countries) 
agreed. Moreover, the promised cease-fire has been routinely ignored.
    The Congo is unquestionably a conflict that crosses national 
borders and, in the U.N. Charter's words, ``endangers the maintenance 
of international peace and security.'' Thus, Council involvement is 
legitimate, and may ultimately prove helpful. Unfortunately, however, 
pushed by certain of the African leaders, and pulled by their own 
confusion about workable U.N. peacekeeping, Council members may have 
made a bad situation worse. By deploying prematurely into a decidedly 
confused and unstable military and political context, the Security 
Council could well have impeded its ability to act effectively down the 
road. As in cases like Cyprus, the U.N. presence may simply freeze 
existing divisions and actually ossify political negotiations.
    And that would be the good news. The other possibility is that by 
deploying lightly-armed observers into the eastern Congo, the Security 
Council risks making them hostage to the warring parties, or even 
becoming combatants themselves (as happened in Somalia and Bosnia). A 
really muscular force that could impose peace is not on the table, nor 
should it be in this multi-sided, highly ambiguous context, where what 
appear to be innocent civilians in need of protection at one point 
become marauding guerrillas the next. Inserting U.N. troops before the 
parties are truly reconciled, at least in the short term, is never a 
purely neutral act, as most combatants fully understand, and which the 
Council needs to understand as well.
    Loose in the Security Council, however, is the idea that ``it can't 
be a real conflict unless the U.N. has inserted a peacekeeping force.'' 
This is exactly backwards. First must come the essential political 
meeting of the minds of the parties to the conflict, then, and only 
then should there be consideration of instrumentalities, such as a U.N. 
peacekeeping force, to implement the agreement. Here, we can see that 
even the Lusaka Agreement is not being honored by the states that 
signed it, let alone the rebel and other forces in the Congo that did 
not. Apparently in recognition of these concerns, proponents of a U.N. 
force have scaled back their initial proposals to a 5,500-person 
observation force. But their stated expectation is that this deployment 
is just the precursor to a much larger force, of 15,000 or more, 
apparently based on the not-irrational idea that once the U.N. is 
sucked in on the ground, the logic of expanding its presence will 
become irreversible. One can only suppose what the American role will 
become once the U.N. presence starts to expand.
   iv. u.n. peacekeeping's direct consequences for the united states
    Although U.N. peacekeeping had received considerable international 
attention during the Cold War, actual deployments of U.N. forces were 
relatively rare prior to the late 1980's. Missions were limited in 
scope, if not always in duration, and the financial costs to the United 
States were relatively insubstantial. In 1989 and early 1990, 
peacekeeping still remained a relatively small part of the U.N.'s 
overall budget. In just the last decade, however, all of that changed 
dramatically, as the attached chart indicates:
    Budget. The most important budgetary implication of greatly 
expanded peacekeeping activities is caused by the difference in the 
level of assessments that the United States faces. For some time, the 
U.S. share of the U.N. regular budget has been limited to twenty-five 
percent (25%). Indeed, from the inception of peacekeeping in 1940, 
until 1973, the U.S. assessment had been equal to its regular budget 
assessment, which gradually declined form the U.N.'s founding to the 
present twenty-five percent level. In 1973, however, the United States 
felt it important to move quickly to create the Second U.N. 
Expeditionary Force in the Sinai (``UNEF II'') to implement the 
provisions of Security Council Resolution 338. As a consequence, and 
because of the general weakness of the United States internationally, 
we were forced to accept a scale of assessments for peacekeeping in 
which we and the other Permanent Members of the Security Council paid 
more than their regular budget assessments in General Assembly 
Resolution 3101 (XXVIII, December 11, 1973).
    Under Resolution 3101, the membership of the United Nations was 
divided into four groups: (A) the five Permanent Members of the 
Security Council; (B) specifically-named, economically developed member 
states (other than the Perm Five); (C) economically less developed 
member states; and (D) specifically-named less developed states 
(typically those whose percentage shares of the regular assessed budget 
were .01 of the total). Resolution 3101 specified that members of Group 
D were to pay ten percent (10%) of their assessment rates for the 
regular budget; members of Group C were to pay twenty percent (20%); 
members of Group B were to pay one hundred percent (100%); and members 
of Group A were to pay one hundred percent (100%) plus the amounts not 
otherwise apportioned. Finally, Resolution 3101 required that, within 
each group, the total amount apportioned was to be distributed among 
the group's members on the basis of the relative weight of each group 
members regular budget assessment, in relation to the total weight of 
the group.
    Although UNEF II's scale was supposed to be a one-time exception to 
the practice of funding peacekeeping operations consistently with the 
regular budget scale, every subsequent peacekeeping mission has adhered 
to the formula adopted for UNEF II. (While the formula itself has not 
changed, the composition of the four groups specified in Resolution 
3101 has changed because of the admission of new member governments to 
the U.N., and several minor modifications to the groups contained in 
subsequent General Assembly resolutions.
    Since, under the provisions of Resolution 3101 and its successors, 
the overwhelming majority of the members of the General Assembly pay 
much less for peacekeeping than they would if the regular budget scale 
of assessments were followed, reverting to the pre-UNEF II practice did 
not seem possible for many years. Because total peacekeeping budgets 
were relatively low until approximately 1988, however, the differential 
in the scale of assessments did not have a major budgetary impact for 
the United States.
    By contrast, as peacekeeping began to expand rapidly, the financial 
impact of the higher peacekeeping scale of assessments began to be felt 
increasingly more strongly in U.S. budgets. Accordingly, the Bush 
Administration decided to seek to return to the regular budget scale of 
assessments as soon as possible. Many in the State Department, however, 
opposed--and effectively blocked any efforts to implement--the 
Administration's policy. They complained that the policy would be too 
hard to accomplish politically, too costly diplomatically, and 
generally not worth the effort. The consequence, of course, was that 
American taxpayers were charged with paying the difference between the 
regular and peacekeeping scale of assessments. Instead, it was left to 
Congress to take action, which has now been accepted by the Clinton 
Administration. Whether the Administration will succeed in persuading 
other U.N. members to reduce both the U.S. regular and peacekeeping 
assessments remains to be seen.
    In a very real sense, this approach is similar to what Congress did 
in the 1980's, by refusing to appropriate the full amount of the U.S. 
assessed contribution throughout the U.N. system because of outrage 
over the anti-Western and specifically anti-American bias of so much of 
the organization. That approach had a very sobering effect on the U.N., 
and attempting to change the U.S. assessment may have a similar impact 
today. In any event, it should be a bipartisan foreign policy of high 
priority to convince the other member governments in the U.N. to align 
the regular and peacekeeping scale of assessments and to reduce the 
U.S. level as soon as possible.
    That said, one is impelled to ask why the United States, almost 
alone among the 184 member governments of the U.N., must bear not only 
the largest assessed share for peacekeeping, but also must expend 
apparently quite extensive Department of Defense resources at a time 
when all resources are constrained by tight budgets. If the Clinton 
Administration's own figures and calculations are correct, one can only 
conclude that the United States seems to be paying early and often for 
U.N. peacekeeping activities, once in assessed contributions 
appropriated by then relevant Committees, and once in in-kind amounts 
appropriated in one or more other Committees. Surely, this imposes an 
unfair burden on our government and taxpayers, who may not even be 
aware of this ``double billing'' for U.N. peacekeeping.
    Command and control. Another critical underlying issue is whether 
U.S. forces should ever be placed under U.N. command, not just what the 
command structures might be. During the Cold War, a major element of 
the uneasy agreement among the Five Permanent Members of the Security 
Council known as the ``Perm Five Convention'' provided that armed 
forces of the Perm Five were not to be deployed in peacekeeping 
operations. Although there were a few minor exceptions to the Perm Five 
Convention over the years, it was generally adhered to quite closely. 
The Perm Five Convention was first developed by Dag Hammarskjold in 
preparing the first U.N. Expeditionary Force (``UNEF I'') in 1956. The 
U.N.'s own unofficial history of peacekeeping, ``The Blue Helmets,'' 
notes that, in forming UNEF I, ``[t]roops from the permanent members of 
the Security Council or from any country which, for geographical and 
other reasons, might have a special interest in the conflict would be 
excluded.''
    There were numerous reasons for this aspect of the Convention, 
stemming largely from mutual distrust as to what forces from one or 
another of the Perm Five might actually be doing in addition to their 
assigned ``peacekeeping'' responsibilities. There was, in addition, 
however, the continuing reason that not deploying their own troops gave 
the Perm Five a certain objectivity and detachment in leading Security 
Council governance of peacekeeping activities. This distance provided a 
perspective that inserting troops into a dangerous crisis situation 
would not afford. The wisdom of the Perm Five Convention is daily 
displayed in Bosnia, where British and French policy seems more 
determined by their (legitimate) concern for the safety of their troop 
contingents stationed with UNPROFOR than by larger geopolitical issues.
    Therefore, the real policy question is whether we should not seek a 
revival of the Perm Five Convention that would preclude any major 
deployment of U.S. and other Permanent Member troops in U.N. 
peacekeeping, especially for those involving ``peace enforcement.'' In 
endorsing this approach, the New York Times editorialized in 1995 that 
``[e]nforcement missions require the kind of firepower that only major 
powers can supply, but these powers do not easily subordinate their 
armies to U.N. command.'' Indeed, the Times argues for a general 
scaling back to traditional U.N. peacekeeping operations like 
monitoring cease fires, using troops from smaller and neutral states. 
The command-and-control problem is thus solved for real enforcement 
missions by assigning them ``to the armies of major military powers, 
under Security Council mandate but national combat command.'' I believe 
that this is a sound approach.
                       v. lessons and conclusions
    Several broad lessons emerge vividly from the foregoing. First, one 
can only conclude that for the past seven years, the Clinton 
Administration--contrary to what is supposedly its own declared 
policy--has been experimenting with U.N. peace operations and the lives 
of the forces involved. Especially with American soldiers at risk, the 
cost of that casual experimentation has been far too high. The key 
point is to identify those American interests that might be advanced by 
U.N. peacekeeping. We are not the World's Platonic guardians, and it is 
a mistake to believe the ``burdensharing'' argument that we have 
substantially less at stake when endorsing U.N. peacekeeping than if we 
undertook the same operation unilaterally. Given the importance of the 
United States, politically and militarily, we are inevitably looked to, 
especially when something goes badly wrong in a U.N. operation. It is 
simply ignoring reality not to take this fact into account at the 
outset of Security Council consideration of a proposed new peacekeeping 
operation.
    One important test in defining American interests can, ironically, 
be found in the U.N. Charter itself. The Charter limits the Security 
Council's jurisdiction to situations adversely affecting 
``international peace and security.'' In too many of the past decade's 
U.N. peacekeeping both the U.S. and the U.N. have found themselves in 
intranational disputes that cannot legitimately be said to threaten 
``international peace and security.'' Simply limiting the Security 
Council to its actual jurisdiction alone would be a substantial policy 
advance, and a major protection against the United States becoming 
embroiled in conflicts where it has no discernable national interest.
    Second, this analysis also demonstrates the centrality of firmness, 
decisiveness and consistency in American foreign policy decision-
making. Where such important political qualities are lacking, only 
confusion follows, especially when policy is directed through 
multilateral bodies like the U.N. Political confusion leads inevitably 
to military confusion in the field, with potentially tragic results, 
such as in Mogadishu. Even where the result is not as immediately and 
visibly disastrous, the longer-term consequences might be even more 
negative. Moreover, it is foolhardy to think that any other governments 
can define an ``entry'' strategy for us. It is up to America's 
leadership to decide whether and when to support U.N. peacekeeping, not 
the U.N. Secretariat, not other Security Council members and most 
certainly not ``international public opinion.'' We must know our own 
objectives, and if we cannot articulate them clearly, we should not 
hesitate to oppose new proposed peacekeeping activities, and to veto 
them in the Council if necessary.
    Third, American rhetoric must not exceed American intentions and 
capabilities. Whether in the Congo or former Yugoslavia, ``talking 
tough'' is of little avail when the political will to follow it up is 
lacking. Rhetoric, either unilateral or multilateral, is not a 
substitute for a coherent foreign policy. Indeed, the opposite is more 
likely to be true: excessive U.S. rhetoric may well plunge us deeper 
and deeper into U.N. peacekeeping operations where there is no or only 
insignificant American interests, and where the actual prospects for 
successful dispute resolution are equally minimal. Some long-standing 
tribal, ethnic, and religious struggles are simply not susceptible to 
external political fixes, and it is not only feckless but politically 
dangerous to pretend otherwise. This is not to say that the U.S. or the 
U.N. might not have a useful diplomatic role to play, but this limited 
involvement in no way implies any need for U.N. peacekeeping.

                          Figure One: Pre-Clinton U.N. Peacekeeping Missions, 1948-1992
----------------------------------------------------------------------------------------------------------------
                                                                                                Total Cost ($
                                                Start/End Dates         Authorized Size           millions)
----------------------------------------------------------------------------------------------------------------
UNMOGIP (India-Pakistan)..................  1948-present                               45                   $119
UNTSO (Palestine).........................  1948-present                              152                    560
UNEF I(Sinai/Gaza Strip)..................  1956-1967                               6,073                    214
UNOGIL (Lebanon)..........................  1958                                      591                      4
ONUC (Congo)..............................  1960-1964                              19,828                    400
UNSF (W. New Guinea)......................  1962-1963                               1,576                  (\1\)
UNYOM (Yemen).............................  1963-1964                                 189                      2
UNFICYP (Cyprus)..........................  1964-present                            1,257                    884
UNIPOM (India-Pakistan)...................  1965-1966                                  96                      2
UNEF II (Sinai/Suez)......................  1973-1979                               6,973                    446
UNDOF (Golan Heights).....................  1974-present                            1,049                    697
UNIFIL (Lebanon)..........................  1978-present                            5,200                  2,810
UNIIMOG (Iran/Iraq).......................  1988-1991                                 399                    190
UNGOMAP (Afghanistan/Pakistan)............  1988-1990                                  50                     14
UNTAG (Namibia)...........................  1989-1990                               7,500                    400
UNAVEM I (Angola).........................  1989-1991                                  70                     16
ONUCA (Central America)...................  1989-1991                               1,098                     89
ONUSAL (El Salvador)......................  1991-1995                                 300                    107
MINURSO (W. Sahara).......................  1991-present                              310                    330
UNIKOM (Iraq-Kuwait)......................  1991-present                            1,082                \2\ 450
UNAVEM II (Angola)........................  1991-1995                                 655                    175
UNAMIC (Cambodia).........................  1991-1992                               1,504                  (\3\)
UNTAC (Cambodia)..........................  1992-1993                              22,000                  1,600
UNPROFOR (Yugoslavia).....................  1992-1995                              45,000                  4,600
UNOSOM I (Somalia)........................  1992-1993                               4,270                     43
ONUMOZ (Mozambique).......................  1992-1995                               7,100                    520
                                           =====================================================================
    Total: 26 Missions....................  .......................        134,367 troops          $14.6 billion
----------------------------------------------------------------------------------------------------------------
\1\ Full costs were borne by Netherlands and Indonesia.
\2\ Since 1993, Kuwait has paid two-thirds of the costs of this mission.
\3\ Costs of this mission were incorporated into UNTAC.

Source: The American Enterprise Institute, March 31, 2000.


                       Figure Two: Clinton U.N. Peacekeeping Missions 1993-March 31, 2000
----------------------------------------------------------------------------------------------------------------
                                                                                                Total Cost ($
                                                Start/End Dates         Authorized Size           millions)
----------------------------------------------------------------------------------------------------------------
UNOSOM II (Somalia).......................  1993-1995                              28,000                 $1,643
UNOMUR (Rwanda)...........................  1993-1994                                  81                     15
UNOMIG (Georgia)..........................  1993-present                              122                    200
MICIVIH (Haiti) (UN/OAS mission)..........  1993-3/00                                 100                    (?)
UNOMIL (Liberia)..........................  1993-1997                                 300                     85
UNMIH (Haiti).............................  1993-1996                               1,500                    316
UNAMIR (Rwanda)...........................  1993-1996                               5,500                    437
UNMLT (Cambodia)..........................  1993-1994                                  20                      5
UNASOG (Libya/Chad).......................  1994                                        9                     67
MINUGUA (Guatemala).......................  1/97-5/97                                 132                     50
UNMOT (Tajikistan)........................  1994-present                               79                     30
UNAVEM III (Angola).......................  1995-6/97                               4,220                    890
UNPREDEP (Macedonia)......................  1995-2/99                               1,106                    570
UNCRO (Croatia)...........................  1995-1996                               7,000                    300
UNMIBH (Bosnia)...........................  1995-present                            1,746                    700
UNTAES (Croatia)..........................  1996-1/98                               5,177                    350
UNMOP (Coratia)...........................  1996-present                               28                     12
UNSMIH (Haiti)............................  1996-7/97                               1,500                     56
MINUGUA (Guatemala).......................  1/97-5/97                                 155                      5
MONUA (Angola)............................  7/97-2/99                               1,326                    210
UNTMIH (Haiti)............................  8/97-11/97                                250                     20
MONUA (Angola)............................  7/97-2/99                                 220                     95
MIPONUH (Haiti)...........................  12/97-3/00                                300                     40
UNPSG (Croatia)...........................  1/98-10/98                                233                     70
MINURCA (Central African Republic)........  4/98-2/00                               1,360                     73
UNOMSIL (Sierra Leone)....................  7/98-10/99                                 50                     40
UNMIL (Kosovo)............................  6/99-present                            3,900                \1\ 300
UNAMSIL (Sierra Leone)....................  10/99-present                          11,100                \1\ 800
UNTAEY (East Timor).......................  10/99-present                          10,600                \1\ 800
MONUC (Congo).............................  11/99-present                           5,537                \1\ 400
MICAH (Haiti).............................  3/00-present                              100                  \1\ 9
                                           =====================================================================
    Total: 31 Missions....................  .......................                91,751          $8.58 billion
----------------------------------------------------------------------------------------------------------------
\1\ Estimated annual cost when fully deployed.

Source: The American Enterprise Institute, March 31, 2000.


    Senator Grams. Thank you very much, Mr. Bolton.
    Dr. Allard.

      STATEMENT OF KENNETH ALLARD, PH.D., VICE PRESIDENT, 
                  STRATFOR.COM, ALEXANDRIA, VA

    Dr. Allard. Senator, thank you very much. I would also say 
that we owe the committee our thanks for the invitation. I 
particularly am honored to be here because I am a former APSA 
congressional fellow, so it is a great pleasure for a change to 
be on this side of the rostrum.
    Senator Grams. We will make it tough on you if we can.
    Dr. Allard. Indeed, sir. Thank you.
    I basically have only three points to make. When we look at 
the panoply of these operations that we have been engaged in 
since 1993, you can make three statements about them. We have 
done too many; that in addition to the too many, we have done 
too many things within them; and that because of these over-
commitments we are approaching very rapidly a crisis not only 
in the readiness of our military forces, but also a crisis in 
their leadership.
    One cautionary note, if I may. In addition to my other 
affiliations, I am also a retired Army officer. On my last 
assignment on active duty, I had the great privilege of serving 
with the U.S. military forces in Bosnia.
    I will never forget that first day in Sarajevo. We were 
standing there at a little street corner called Sniper Alley, a 
very interesting place. I know that some of you have visited 
it. Standing there several months before would have invited 
sudden death. All of a sudden I felt someone touch my shoulder. 
I looked down and an old Bosnian man was standing there. He 
just reached up and touched that American flag combat patch on 
my right shoulder and just said: ``Thank you.''
    At that moment I had never felt prouder to be an American 
soldier. So please keep that in mind as sort of backdrop for 
what I am about to say next.
    You have to look at peacekeeping in the context of 
everything else that we have been doing internationally. We say 
peacekeeping, but to the target country it is simply an 
intervention. For some of the reasons the Ambassador mentioned, 
these things can go very, very wrong very, very quickly.
    I was astounded in getting ready for a presentation last 
fall to have access to a Congressional Research Service report 
which indicated that since 1993 there have been 53 separate 
occasions in which the President had notified the Congress 
under the provisions of the War Powers Act that he had deployed 
American soldiers in harm's way. Now, that to me is a record of 
promiscuous intervention, and it is important that we see 
peacekeeping as part of that larger pattern.
    Sir, I associate myself completely with what you said about 
exit strategies, although as a former military officer I can 
only imagine General Patton talking about an exit strategy. He 
probably would have told us that the idea of warfare is to 
cause the other guy to have the exit strategy, and indeed if 
you have to worry so much about your exit strategy, you should 
probably re-think your entrance strategy.
    This larger pattern of interventions worries me a great 
deal. Over this last decade, from Iraq all the way up through 
Kosovo, we seem to have accepted the pernicious notion that 
endless troop commitments are much to be preferred to decisive 
military or political outcomes.
    The corollary to that is very simple: The less decisive the 
outcome, the longer we can expect the troops to be hanging 
around. That is what I think we need most to understand about 
peacekeeping.
    My second point is what happens within those missions that 
we find ourselves in. What you have to remember, is what that 
wisest of all philosophers, Anonymous, wrote. I had occasion to 
quote him in the book that I wrote about Somalia, in which he 
said: ``The difference between genius and stupidity is that 
genius understands limits.''
    What I find remarkable about so many of these operations is 
that we tend to ignore those limits. Clearly we ignored that 
limit in Somalia when we got involved so unwisely in nation-
building.
    The thing that I saw in Bosnia was that we had learned that 
lesson. We learned that when you go in to disarm a populace 
that is an act of war. Consequently, in Bosnia what we did 
under the Dayton Accords was simply to police the cantonment of 
the arms, the ammunition, and the training areas. That worked 
fairly well.
    So when I now see in Kosovo that we are beginning to get 
our soldiers more involved in police operations, beginning to 
do the raids, searches and seizures of arms and ammunition 
caches, that to me, Senator, is mission creep.
    Part of the reason why missions creep into these 
environments has an awful lot to do with the professionalism of 
our military. I watched brigade commanders in Bosnia routinely 
outperform their counterparts, not only from the U.N., but also 
from our State Department and also from the humanitarian relief 
agencies. Why? They had better training, motivation, equipment, 
and professionalism. Consequently, there is an enormous 
tendency for them to take on these missions.
    We need to do something about that, because we are over-
compensating for the deficiencies of the international system. 
We can talk about the need for more effective regional security 
organizations. But article 47 of the U.N. Charter originally 
envisioned a military staff committee precisely to coordinate 
and perform these missions. But modern peacekeeping operations 
undertaken by the U.N. are not run by the Security Council as 
envisioned by article 47, but by the Secretariat. A fundamental 
flaw.
    Because we have been doing so many of these operations, 
Army deployments are up 300 percent since the cold war. 
Meanwhile, we have reduced those forces by 30 percent. 
Basically what you have then, Senator, is a force that has been 
``rode hard and put away wet.''
    I saw soldiers in Bosnia who were veterans of what they 
called ``the grand slam,'' that is Somalia, Haiti, and now 
Bosnia. In a lot of cases they were in U.S. Army Europe as part 
of a ``get-well tour'' to recover from those two previous 
deployments. But because they had crossed the Sava River into 
Bosnia on New Year's Eve 1995, they had not seen their families 
in 6 or 7 months.
    One of the best NCO's that I served with over there said: 
``Sir, I am really good at what I do. But you guys are forcing 
me to make a choice between this Army that I love and the 
family that I have to love even more, and that is not a 
choice.''
    Consequently, it does not take a genius to look at these 
declining readiness rates right straight across the forces and 
to say that they result from what we have been doing with them.
    But as much as I worry about the readiness issue, Senator, 
I get a lot more concerned about the leadership issue. If you 
examine our track record in peacekeeping operations there have 
been three especially perverse leadership issues: zero 
casualties, zero defects, and micromanagement.
    Zero casualties is an idea resulting from the failure to 
learn the right lessons from what happened in Somalia. I wrote 
a book on that and my conclusion was very simple: It was not 
the sacrifice of those 18 heroic Rangers; it was the fact that 
the reason for their deployment, let alone their sacrifice, was 
never adequately explained and justified to the American 
people.
    Unfortunately, the lesson that was learned by this 
administration was simply to avoid all other casualties. In 
Bosnia, that was a very dysfunctional policy. We emphasized 
force protection almost to the level of dysfunctionality. 
Wherever we went, we went in full ``battle rattle,'' regardless 
of our perception of the local threat.
    I think it was Mahatma Gandhi who said that you could have 
neither politics without principle nor religion without 
sacrifice. I would respectfully add you cannot have war without 
casualties. That goes as well for things that look like wars.
    Casualty aversion also begets a zero defects syndrome. If I 
cannot have casualties than I cannot have anything that looks 
like even a defect, because my opportunities for advancement 
and promotion will be thereby threatened.
    Consequently, there is this third factor that I mentioned: 
a tremendous and frightening degree of micromanagement. In 
Bosnia we had every evening a thing called the battle update 
briefing promptly at 1800 hours, 6 p.m., and it was not at all 
unusual for us to have 120-plus powerpoint slides presented to 
the assembled staff, with kibitzing generals all the way up the 
line.
    Now, this is the military that we say is going to out-fight 
and out-think its opponents. I'm skeptical, given our 
bureaucractic, risk-aversion performance in recent years. Maybe 
you can argue that Bosnia worked very well because we had 
virtually no casualties. But in Kosovo, it seems to me that we 
are getting into a style of warfare that has taken the wrong 
lessons from our peacekeeping experience and mis-applied them 
to the real business of the American military, which is war.
    One of the things that I came to understand in the course 
of a 26-year military career, Senator, was that military forces 
are extremely expensive, extremely difficult, and they really 
only do one thing for you: They buy you time, always at the 
cost of some significant degree of the national treasure that 
you people provide, but also in some cases with blood.
    So I think it is terribly important for us to remember that 
when we put forces on a peacekeeping operation they are 
basically buying time. That time and that sacrifice will be in 
vain unless accompanied by a great degree of wisdom in choosing 
our interventions.
    Sir, thank you, and I look forward to your questions.
    [The prepared statement of Dr. Allard follows:]

                Prepared Statement of Dr. Kenneth Allard

    Mr. Chairman and Members of the Committee: Thank you for the honor 
of being invited to testify before this distinguished committee of the 
United States Senate. And as a former Congressional Fellow and humble 
Senate staffer, let me add that it is a particular pleasure to appear 
on this side of the rostrum.
    You have chosen a most appropriate moment to assess the issue of 
peacekeeping. This is a difficult and emotional topic, where one of the 
customary pitfalls is the loss of perspective and where partisanship 
often substitutes for clear thinking. So in suggesting several things 
about our recent experience with peacekeeping, let me try to keep faith 
with the lessons learned here as a Congressional Fellow with mentors 
like Senator John Warner and the late Congressman Bill Nichols. Among 
other things, they taught me that defense and foreign policies are best 
addressed by putting the nation's interest ahead of party and 
position--quaint though that idea often sounds these days.
    That point was brought home to me rather poignantly just hours 
after arriving in Sarajevo in early 1996 as part of the U.S. 
peacekeeping contingent for IFOR, the first of our troop commitments to 
Bosnia under the Dayton Accords. I was standing in a part of that city 
known as ``Sniper Alley''--a street corner where only months before 
death was one of the few certainties. Something touched my shoulder and 
I turned to see an old man smiling up at me. He reached out again, 
touched the American flag combat patch on my right shoulder and simply 
said, ``Thank you.'' I had never felt prouder to be an American soldier 
than at that moment. And most of us who saw not only the devastation of 
that beautiful country but also the hope in the eyes of its children 
were convinced that our presence there was an appropriate use of 
American power.
    That said, let me be clear about my position on the important 
question you are examining here this morning. I believe there are three 
basic flaws in our approach to peacekeeping:

  <bullet> We have committed ourselves to too many of these operations, 
        especially given the reductions in the size of our forces 
        throughout the last decade.
  <bullet> We have made these over-commitments worse by attempting to 
        do too much with our limited forces once we have been committed 
        to what are at best difficult and ambiguous missions.
  <bullet> We have carried out those missions in ways that are rapidly 
        producing not only a crisis of readiness in our forces, but an 
        even more alarming crisis of military leadership.

    In looking back across the last decade, most of these flaws could 
have been foreseen. Indeed one has to be impressed at the naivete with 
which we approached what almost everyone said at the start was a ``new 
mission.'' In fact, there is nothing really new about peacekeeping at 
all. The American army was nothing if not a constabulary force for most 
of the nineteenth century, keeping the peace of the frontier under the 
rubric of Manifest Destiny. And as American interests became more 
global toward the end of that century, the defense of such new 
responsibilities in the Panama Canal Zone, the Philippines and even 
Central America became accepted parts of what the Army and the Marines 
were asked to do. But there are some sobering lessons in that history 
about the impact of modern military forces on traditional societies. 
Basically, a great deal of effort is required, ``progress'' must be 
carefully defined in terms of the local culture, and what progress 
there is seems extraordinarily slow by the standards of our own 
pluralistic democratic culture.
    All the more reason then to be careful of the first sin of over-
commitment. What is seen by us as a peacekeeping mission is inevitably 
perceived as an intervention by the inhabitants of the country where we 
are deploying. Because global politics are local too, caution is 
required. And yet, according to the Congressional Research Service, on 
no fewer than 53 occasions between 1993-1999, American forces were sent 
to countries where they were in imminent danger of hostilities under 
the reporting provisions of the War Powers Act. Most of these 
situations were the stuff of headlines: Iraq, Somalia, Haiti and 
Bosnia. But there were also lesser-known deployments to Macedonia, 
Guinea-Bissau, Sierra Leone and Cambodia, among a host of others.
    By any standards, this is a record of promiscuous intervention, 
underlining the truism about good intentions paving the roads to hell. 
Instead we hear a good deal about ``exit strategies.'' I have always 
wondered if General George S. Patton might not have observed that the 
whole point of warfare is to cause the other guy to have an exit 
strategy! But perhaps the serious point here is that if you have to 
worry so much about an exit strategy, then maybe, it's time to re-think 
the entrance strategy. Especially in the cases of Iraq, Bosnia and 
Yugoslavia/Kosovo, we also seem to have accepted the pernicious idea 
that endless troop commitments are preferable to decisive military or 
political outcomes. The corollary is of course that the less decisive 
the outcome, the longer the troops can expect to stay.
    One of the points that I raised in my book on Somalia addresses the 
second sin of doing too much. That wisest of all philosophers, 
Anonymous, put it this way: The difference between genius and stupidity 
is that genius has limits. In attempting to have our forces engaged in 
nation-building in Somalia, we clearly had forgotten those limits. As 
we saw there as well, committing the peacekeeping force to the forcible 
disarmament of a civilian populace is committing them to combat. We 
learned that lesson in Bosnia and merely monitored the cantonment of 
arms and ammunition caches held by the former warring factions. But I 
note with some trepidation that our forces in Kosovo are now performing 
police functions while conducting weapons searches and seizures as that 
mission creeps ever closer to outright hostilities.
    In some ways, the very professionalism of our military tends to 
bring on such expansions of their missions. I saw Army brigade 
commanders in Bosnia routinely performing prodigies of civil-military 
relations--outperforming their counterparts from the diplomatic and 
humanitarian communities because of superior training, organization, 
equipment and motivation. That situation reflects a basic flaw of the 
international system. As I also pointed out in my book on Somalia, ``If 
it looks like war, it doesn't look like the U.N.'' Clearly the U.N. 
should attend more to mandates and less to the direct management of 
peacekeeping operations. But we also need a better organizational 
infrastructure and international capability for managing regional 
security problems, especially peacekeeping.
    My final point is that we have conducted our peacekeeping 
operations in ways that are rapidly producing a crisis of readiness as 
well as leadership. Many experts have traced the first problem to the 
reported 300% rise in Army deployments since the Cold War--even as its 
strength levels have been cut by over thirty percent. My purpose today 
is not to argue those figures but instead to personalize them. 
Virtually every day of my service in Bosnia I saw evidence of soldiers 
who had been over-deployed to the areas in harm's way mentioned 
earlier. Many had endured what they referred to as the ``the grand 
slam:'' Somalia, Haiti and now Bosnia. Indeed, I met a number of 
soldiers who had been sent to Germany on ``get well tours,'' where they 
could once again be on a first-name basis with their families. Deployed 
across the Sava River on New Year's Day, 1995, most had not seen those 
families in six months.
    Many of you will have watched in some horror as the readiness rates 
of Army divisions and their counterparts in other services decay to 
reflect the inevitable result of our soldiers ``voting with their 
feet'' as they are forced to choose between their military careers and 
their families. And yet I will confess that what keeps me up at night 
is not the issue of readiness but leadership. This pattern of over-
deployments has been accompanied by an even more perverse aberration in 
the way we conduct our operations. Three closely linked culprits are at 
the heart of this new leadership issue: ``zero casualties,'' ``zero 
defects'' and micromanagement.
    The first, ``zero casualties,'' is based on a misreading of what 
went wrong in Somalia. There the issue was not so much the tragic 
deaths of our soldiers but rather the failure to explain adequately to 
the American people why they were there and why that deployment 
represented a critical American interest. It is but a short step to the 
second, ``zero defects,'' in which a force that is being rapidly 
reduced produces ever narrower career paths in an already Darwinian 
process of career advancement and promotion. The result inevitably is 
micro-management, in which too much rank chases too few 
responsibilities and no detail is too small to be scrutinized by ever 
higher headquarters.
    More worrying is how these things work in practice. In Bosnia, the 
zero casualties requirement resulted in ``force protection'' guidelines 
that were out of all proportion to any notion of threat--to the point 
that our coalition partners routinely if covertly snickered at the 
sight of our soldiers going everywhere dressed in full ``battle 
rattle.'' The zero defects and micro-management tendencies produced 
nightly ``battle update briefings,'' with scores of Powerpoint charts 
eagerly monitored by the covey of generals who were always in 
attendance or kibitzing from higher headquarters. Since the Bosnia 
mission has largely been successful (if endless), it might be argued 
that these practices do no harm.
    But in Kosovo, the zero casualties edict led to a disturbing new 
style of warfare that ruled out the all-important synergy of land, sea 
and air combat. Worse yet, we were able to hit targets but not always 
to see what they were. Civilians and refugees on the ground bore the 
brunt of this policy with the inevitable accidents attending war by 
operator-safe standoff munitions. For all the easy talk of 
``transformation,'' the Army must come to grips with its own 
bureaucratic failures in the tardy deployment of Task Force Hawk into 
Albania. There is much to do to make these things right and that 
careful process of introspection and analysis has barely begun. My 
suggestion is therefore that the Congress ask some tough questions of 
our military about this leadership crisis before signing the checks for 
the new generation of information-based weaponry that is being urged 
upon you.
    These are just a few of the disturbing long-term consequences 
resulting from the experiences of peacekeeping over the last several 
years. In closing, I would suggest that we remember that military 
forces, either in combat or peacekeeping, primarily buy time, with the 
price paid always in national treasure and sometimes in blood. As we 
look to the future, we must insure that we use this time and those 
sacrifices only for the most critical interests of our nation.
    Thank you, Mr. Chairman and I look forward to your questions.

    Senator Grams. Well, thank you very much, gentlemen. You 
have provided an awful lot of information already in your 
statements. I would like to ask some questions and I will maybe 
direct them at certain individuals, but please feel free to 
jump in and answer any time if you have something you would 
like to add as well.
    Dr. Bolton, I would like to start with you talking about 
national interest. As I mentioned, and others have also said, 
in my opening statement, I am concerned that the U.S. has moved 
away from a national interest test in deciding whether to 
support U.N. peacekeeping missions. Dr. Bolton, I think you 
mentioned something about the peacekeeping should be in our 
national interest if we get involved.
    But has there been a conscious effort by the administration 
to determine whether peacekeeping missions are in the national 
interest since PDD-25 was promulgated?
    Ambassador Bolton. I think, Senator, to the extent I 
understand the administration's decisionmaking practices, what 
they have done is taken the phrase ``national interest'' and 
expanded it almost to the point where everything is a national 
interest.
    Senator Grams. So there has been a shift in what is 
national interest? I mean, a stretching?
    Ambassador Bolton. Exactly. A humanitarian tragedy becomes 
in our national interest. A human rights violation becomes in 
our national interest. There are certainly legitimate grounds 
for debate about national interest. I would not pretend to deny 
that. But to take Kosovo as an example, not as a U.N. operation 
but as kind of a paradigm of the administration's thinking, it 
seems to me that by defining gross abuses of human rights in 
Kosovo to be a sufficient trigger to utilize American military 
force, there has been a separation from what we call 
``traditional national interest thinking'' that means there is 
almost nothing that cannot justify the use of American military 
force. Once you get to that point, it is a small step, if any, 
to say that it justifies the presence of a U.N. peacekeeping 
force.
    The thing that I think is important, in the U.N. context or 
any multilateral peacekeeping context, to keep in account is 
that other nations are pursuing their national interests. They 
are not ashamed to say it and they are not ambiguous about what 
they do. And we should not feel defensive or constrained about 
pursuing our national interests as well. If we do not feel that 
there is a sufficient interest for a U.N. operation, it is a 
legitimate ground to oppose it.
    Quite apart from all of the prudential considerations that 
I think we have all talked about up here about when 
peacekeeping succeeds and when it does not, I think most 
importantly of all, we cannot want peace more than the parties 
themselves. I think our tendency to forget that over time has 
been one of the principal causes of U.N. peacekeeping failures 
and failures when the United States has been involved directly.
    Senator Grams. Mr. O'Hanlon.
    Dr. O'Hanlon. If I could just add, Senator Grams. I think 
it is important to recognize this is not a Clinton 
administration development. It is a point worthy of debate, 
what our national interest is. But it was the Bush 
administration which issued the Christmas warning in 1992 
telling Milosevic gross human rights abuses in Kosovo against 
the ethnic Albanian population could not and would not be 
tolerated by the United States. At that point it became not 
just a humanitarian issue, but also a test of credibility for 
NATO.
    So I would simply submit, I agree with those, in the Bush 
administration, but I would underline that this is not 
something that developed in the Clinton administration. By the 
same token, we all know Somalia was an intervention begun by 
the Bush administration. I would, even though I am a Democrat 
and the Democratic witness here, I would say the Bush 
administration handled the mission much better than the Clinton 
administration. But there was not a disagreement about the idea 
of trying to use some level of intervention to save lives. That 
was seen as a valid goal.
    I would simply criticize the administration for having 
mismanaged the use of force, rather than for the basic idea of 
trying to do something in the first place. So I would just want 
to change the debate slightly in those terms or make that 
additional point.
    Ambassador Bolton. Senator, could I just respond to that as 
well? On Somalia, just to take one point, since I was there 
when the Bush administration fashioned its policy in Somalia, 
the intervention that was undertaken there, for well or ill, 
was for a limited, defined humanitarian purpose. The 
administration was fully prepared to withdraw all American 
forces by January 20 if that had been necessary.
    What happened in Somalia in 1993 reflects a fundamental 
shift in the mission from a limited, defined humanitarian 
objective to the broad, undefined, I think in fact undefinable, 
goal of nation-building through the policy of assertive 
multilateralism.
    I think, tempted as I am to go point by point about these 
differences, I certainly am willing to agree as well that 
mistakes were made in the Bush administration on some of these 
things and then carried forward in the Clinton administration. 
It is not a split between parties or between administrations. 
It is a split, an important philosophical split in how you see 
America's role in the world.
    Senator Grams. Dr. Hillen, did you have something to add?
    Dr. Hillen. Mr. Chairman, on the question of national 
interest, I think a lot of these missions into which we have 
thrust the U.N. over the past decade or so sit on the cusp of 
national interest. We are not quite sure----
    Senator Grams. Just ours or any country's national 
interest?
    Dr. Hillen. Just ours, really, because we think, well, they 
are things in which the U.S. should have an interest, but it is 
not such an interest that we should take the lead in deploying 
our national treasure to attend to them. So what we tended to 
do, and more so in the past 7 years, is as a form of therapy 
for us rather than good policy, we get the U.N. to do it, 
because if it is a problem that needs to be attended to, but 
not so serious that we think we should do the attending, have 
somebody else throw their troops at the problem.
    So in both Bosnia and Somalia and Cambodia, we have used 
the United Nations, as I said in my testimony, as an excuse and 
not a strategy. The idea was, as John Bolton said, that this 
was a freebie, this was a cop-out. You could show you are an 
assertive multilateralist and you do not have to pay any costs 
yourself just by giving it to the U.N.
    But there are costs when we make this decision. I will just 
go down some. I talked a little bit about how ultimately you 
discredit the United Nations, which can be a useful instrument 
for foreign policy. Plus as you well know, the U.S. ends up 
paying the bill, which is, the significant portion of the bill, 
which is adding up exponentially the more complex these 
missions get.
    Then third and most importantly, and as Dr. Allard knows 
well from his military experience and his studies, there is a 
law of unintended consequences which not only dominates 
military operations, but can often rule them. So an attempt to 
foist off a mission onto the U.N. because it is on the margin 
of our national interest can get the U.S. involved militarily.
    I will give you one example. In 1994 President Clinton, as 
Richard Holbrooke's memoirs recount, without really knowing, 
sort of backed into a pledge to rescue the U.N. peacekeepers 
from Bosnia if that mission failed. So that by the summer of 
1995, as you remember, the decisionmaking dynamic was: Well, we 
have got to get involved in Bosnia in some way because 
basically we have got to send in NATO troops to rescue the U.N. 
peacekeepers, who at that time were being chained to bridges 
and chained to radio towers by the Serbs, or we have got to go 
in and take over the mission, full stop.
    So I would caution against, because these things sit on the 
cusp of the national interest, of the U.S. thinking that it can 
get its cake and eat it too by tending to a national interest 
but not sacrificing anything. I agree with John Bolton, we need 
to make a much clearer demarcation of what is in our national 
interest or not, because if we do not do that we do not know 
what is worth sacrificing for.
    Senator Grams. Dr. Allard.
    Dr. Allard. Senator, I think it is very important to 
remember that there were three very distinct phases in Somalia. 
One was the humanitarian relief operation conceived from the 
beginning as something that the United States would land as a 
chapter 7 operation. But it was specially created with the idea 
that there would be the handoff to this U.N. peacekeeping 
force, to kick off phase two.
    That second phase has been called ``aggravated 
peacekeeping'' although I prefer General Montgomery's phrase. 
He said: ``If this is not combat, I am sure having a 
nightmare.'' We went from humanitarian relief to nation-
building, and along the way decided to take out Mohammed Farad 
Aideed. In short: welcome to the wonderful world of combat.
    All the more reason, before you go in, to recognize the 
fact that you are on a slippery slope. You have got to have a 
fairly exact concept of what your national interest is and what 
you hope to accomplish by the introduction of military forces. 
Clausewitz said that very, very well. If you cannot do that, do 
not go.
    Senator Grams. If we are going to be expanding the term, as 
we have said maybe stretching ``national interest,'' can or 
should the U.S. be considered the policeman of the world? Can 
we afford to do that? Should we be doing it? Maybe Dr. 
O'Hanlon?
    Dr. O'Hanlon. No, Senator, I would not go along with that 
term. I would not encourage the United States to aspire to that 
role. I am actually more interested in helping push other 
countries to get better at these peace and humanitarian 
operations. On the one hand, if there is a tragedy like Rwanda, 
I feel whoever can do it has to do something.
    Congo and Sierra Leone are more on the edge of 
debatability. Even I would acknowledge that. I support the 
missions, but I think they are on the edge. I do not expect 
them to involve U.S. troops even if they fail, but there is 
some chance. I do not deny that.
    But the real question for me is how do we keep encouraging 
the Europeans to get their militaries more deployable, how do 
we expand perhaps the Africa Crisis Response Initiative to help 
the Africans get better? I really think we have to have more of 
a sense of global burden-sharing. I have been pushing for the 
Japanese in my writings on East Asia to actually get beyond 
World War II a little bit and, even if it makes Chinese and 
Koreans unhappy, to have a small military force that could be 
used in some of these missions, because we cannot do it all. We 
just do not have the luxury of having a military that has been 
downsized quite a bit and doing even as much as we have been 
doing, certainly not more.
    I do think we can handle about the current level if we 
manage the force somewhat differently. Colonel Allard made the 
point that we have overtaxed some units. That is partly because 
the military has not gotten organized for these sorts of 
missions very well and they have sometimes sent the same unit 
to several missions in a row. That is partly a problem of force 
management at the Pentagon.
    But I do agree that we have reached about the limit of what 
we can be expected to do and others have to be able to do more. 
And U.S. policy can help push them in that direction. I would 
encourage that as much as possible.
    Senator Grams. Does any of the--go ahead, Dr. Hillen.
    Dr. Hillen. Mr. Chairman, if I could make a remark, the 
U.S. has the unique and decisive role in the world's security 
affairs and it is ever more unique and decisive because 
increasingly we are the only country that can do it. I mean, 
even mechanically. We are the only country in the world that 
has large aircraft carriers, stealth military power, long-range 
power projection, long-range air power, satellite-based command 
and control, you name it.
    We are the only show in town when it comes to first class 
long-range power projection war fighting. We have got a lot of 
burdens in that area. We have told five separate areas of the 
world through military alliances that we will guarantee their 
security against threats from major powers. We have got troops 
on the DMZ in Korea, we have got troops in Iraq, we guarantee 
the security of Europe, we guarantee the security of the 
Western Hemisphere.
    That is very taxing and we are the only country in the 
world that can do that. No other country can gin up half a 
million people and send them to the Gulf in the event of an 
unexpected invasion of Kuwait, as we did almost a decade ago.
    To the extent that we decide to get involved on the 
periphery of our national interest in peacekeeping operations, 
I think both mechanically and strategically we fritter away 
that power, that unique and decisive power that nobody else can 
provide. We are not just a bigger Canada, we are not just a 
bigger Sweden--nations that do peacekeeping well because they 
have trained for it and rehearsed it and, conversely, they do 
not do the sorts of things we do militarily well.
    I think we need to be very clear about a division of labor 
and, since we are always in alliances and we are always members 
of a team, like any good team, we need to assign roles and 
responsibilities to team members that match their interests and 
capabilities.
    Increasingly, the U.S., because we have spent so much time 
in peacekeeping--I agree with Colonel Allard--we have got three 
crises in our military. We have got a readiness crisis, which 
you know much about, we have heard about; we have got a crisis 
on preparedness. We are not preparing for the future. The 
wheels come off all our military systems about 2010, and we 
have got to transform our military and change it for the 
future. We have to create some strategic space to do that.
    Third, we have got a crisis in morale, I believe. A lot of 
it comes from the numerous deployments on top of each other. 
And peacekeeping in and of itself also has an effect on the 
war-fighting morale and spirit of our armed forces.
    I think we need to attend to those, because there are 
certain missions that only the U.S. can do and they are the 
ones at which we cannot afford to fail. You can muddle through, 
mess up, and generally figure out a way to mess through a lot 
of peacekeeping missions that will have very little impact on 
the international security environment in the grand sense. But 
if the U.S. fails at one Desert Storm or Korea there is pretty 
big consequences for the international environment.
    So I think we really need to keep our eye on the ball in 
the U.S. military establishment and keep our focus. So I would 
say we definitely need to not only not be the policeman of the 
world, we need to think about what we do best in focusing on 
that.
    Senator Grams. But being the biggest and most powerful and 
the one able to respond, we get kind of drug in and through the 
back door becoming the policeman of the world.
    Dr. Hillen. Absolutely, and that is why, as John Bolton 
said, we need discipline and coherence in our policy. We got 
involved in a lot of these missions because of a syllogism, not 
a strategy. It went something like this: Something must be 
done, the U.S. is something; therefore the U.S. must do it. 
That is not strategic thinking.
    Senator Grams. Mr. Ambassador.
    Ambassador Bolton I think it is important to make the 
larger political point as well that is complementary to what 
John just said. That is that it is precisely because of the 
United States' role in the world that we have to keep our 
attention focused on where the major strategic threats are. And 
by getting diverted into the capillaries of world crises, I 
think we lose sight of the bigger things that only we can deal 
with.
    There is not just a kind of military fatigue, there is a 
sort of leadership fatigue as well. Michael Mandelbaum of Johns 
Hopkins has talked about the dangers of foreign policy as 
international social work. He really has hit on something quite 
important. I hope that is something that the next 
administration, of whichever party, is really going to focus on 
and reconcentrate our efforts on defining what our core 
interests are in a place, for example, like the Taiwan Strait, 
where there is an enormous risk of conflict because one side of 
the Strait does not accept that democracy works on the other 
side of the Strait. That is not going to be handled in the 
United Nations, you can bet on that.
    Senator Grams. What about genocide? I mean, is that drawing 
the line if it is not in U.S. interests, or is it in the U.S. 
interest to end genocide, say like in Rwanda, that we never 
responded to that? Is that a borderline?
    Ambassador Bolton. I think that this is a situation where 
emotionalism and good intent can override what are legitimate 
moral calculations for a President of the United States as 
well. Nobody can justify what happened in Rwanda and in the 
surrounding countries. I thought it was fascinating that it was 
the French Ambassador who said that we cannot resist the moral 
imperative when indeed it was French actions in Rwanda and 
elsewhere that materially contributed to the work of the 
genocidaires.
    But it is certainly not only appropriate, it is necessary, 
for an American President to make the justification to the 
people when American blood is lost and to say and to be able to 
say, ``I consider it justifiable to put Americans at risk,'' 
and to be able to say to the parents of the soldiers who may 
not come back that they did sacrifice for a legitimate American 
interest.
    I think it is wrong to be casual with American blood, and 
the moral imperative alone about the concern about genocide is 
not the only moral imperative at stake. The President has a 
moral duty to the American people as well, and I think that 
needs to be factored into any calculation of that kind.
    Senator Grams. Colonel.
    Dr. Allard. Senator, I know what it is like to look into a 
mass grave. I saw them in Bosnia and once you see them you 
never forget. All the more reason to remember what the purpose 
of strategy is: to relate ends and means. And if you are 
intervening 53 times in 6 years, or every couple of months, 
then are you going to be ready when the Nation's interest 
really is at stake?
    There is another critical distinction that I would draw and 
that is that it is an article of faith in the military that 
amateurs talk strategy, while pros talk logistics. We are very, 
very good at logistics. We do that, better than anybody else in 
the world. I think that one of the things that we have to ask 
ourselves is: At what point should we contribute to a 
peacekeeping operation in terms of its logistics, or in terms 
of its command and control. We should distinguish those 
instances from when we consider contributing ground forces, 
because when you commit American ground forces you have by 
definition committed the Nation. There is a qualitative 
difference between ground forces and other kinds of forces.
    But quite frankly, if your declared strategy is called 
engagement and enlargement, then those strategic distinctions 
are going to be very, very tough ones to make.
    Dr. Hillen. Senator, I am sorry to jump in. I want to make 
a quick point on this. It is important. I will give you a quick 
story. I was traveling around the world with the commission, a 
couple of your former colleagues, Senators Rudman and Hart, in 
May last year. It was right after as the Kosovo bombing was 
winding down.
    Everywhere we went--Azerbaijan, Egypt; we were all over the 
place, Turkey--people were holding the U.S. in awe because of 
the accidental bombing of the Chinese Embassy in Belgrade, 
which of course most people thought was completely intentional 
because it turns out we ended up killing three Chinese 
intelligence agents.
    The Turks gave us a nudge and a wink and said: Oh, you 
know, that is quite something, because you put a 27 year old in 
an airplane in Missouri and you flew him around the world and 
you managed to bomb three Chinese intelligence agents in the 
Embassy in Belgrade. And they held our military power in awe.
    I think we frittered away that capital the day that the 82d 
Airborne Division, a unit with which I have served, got chased 
out of Mitrovica by a bunch of snowball-throwing Serbs. That is 
why I do not think you want the U.S. military, its ground 
troops, doing peacekeeping, because only the U.S. can really 
deter and hold people in awe of its power. And when you get 
down on the ground and are trying to decide whose goose belongs 
to whom in a little village in Kosovo, you lose that respect, 
that capital, you built up expensively with American lives. I 
think we really need to think about that point as well.
    Senator Grams. What we are talking about here is we have a 
vote on right now. There are two votes. They will be back to 
back. And we are hoping that Senator Brownback, who is on his 
way to vote now, will come in between, let me run back, do two 
votes, come back, and then he can go vote. So we are working 
out the strategy, talking about strategy. It is just something 
we have to do.
    Talking about entry strategy, we mentioned this, you have 
mentioned this. Is the U.N. Security Council with its emphasis 
on consensus able to construct mandates which are neither too 
vague nor too sweeping? But then at the same time, what can the 
United States do to make the mission of peacekeeping missions 
well-defined from the outset?
    We always ask, you know, we want a defined mission when we 
are talking here. We always talk about the exit strategy. What 
can we do to help make these missions more definable, I guess 
to lend credence to whatever our strategy is? Dr. O'Hanlon, we 
will start with you.
    Dr. O'Hanlon. Great question, Senator. Let me take Congo as 
an example. Even though again I support the mission and you may 
not, what I would encourage you to do and hope you will do is 
to ask the administration what its political theory is behind 
the mission. In other words, why will Mr. Kabila ultimately go 
along, even though, as Ambassador Bolton has pointed out, he 
has not been quite sure if he wants to go along?
    I can see an incentive, that he wants control of his 
country, he wants to consolidate his political sovereignty over 
it. But I would like to hear the administration explain why 
they think he will go along, and not just invoke the Lusaka 
Accords, which are promising, but they are not really a 
political strategy. I would like to hear them say why they 
think that Rwanda and Uganda and Burundi will really be 
supportive of this in the end.
    Finally, I am really nervous, as I said before, about the 
Interahamwe. I do not know why these Hutu extremists would want 
to go along with the accord. I am hoping that we can 
marginalize them over time and weaken them. But again, I would 
like to hear the strategy.
    So that would be an entrance strategy that focused on the 
core political calculations of the parties at issue, because I 
would like to really have a theory in mind for why they are 
going to keep cooperating. I think they might, but it is a 
gamble and I want to think through all the pros and cons before 
I even invest U.N. peacekeeping troops in this because, as John 
has pointed out, John Hillen, there are risks to doing that for 
us as well and costs.
    Dr. Allard. Senator, I said this about those mandates in my 
book on Somalia: ``Clear U.N. mandates are critical to the 
planning of the mission because they shape the basic political 
guidance given to U.S. forces by our political leadership. A 
clear mandate shapes not only the mission, the what that we 
perform, but the way that we carry it out, the how.''
    I think the right way to do this is to make sure that there 
is a tight political dialog between the military and the 
political leadership that will have to carry out an operation. 
I learned very early in my career that one of the first things 
that I had to do was to ensure that first of all I understood 
the order, if nothing else to ensure that it was legal.
    We always think about civil-military relationships in the 
context of a given country. One of the things we have seen over 
the last 10 years is that the civil-military relationship now 
needs to be defined in the international context as well. At 
every stage when the Security Council is shaping a political 
mandate it needs to consider some specific military advice.
    That is one of the things that is missing in the U.N. 
structure itself, despite the clear wording of the Charter. 
That military advice was contemplated by the founders as being 
one of the major functions of the Military Staff Committee. 
That function simply is not there in the Security Council.
    Senator Grams. Mr. Bolton.
    Ambassador Bolton. You have asked a critical question about 
the dynamic of the decisionmaking in the Security Council, and 
you have had a chance to observe it when you have been up in 
New York yourself. It is really something that is very hard to 
describe if you have not seen it in operation. But with 15 
governments, each with a particular point of view, determined 
to have their input into a Security Council resolution that 
creates peacekeeping mandates or other resolutions, it is very 
hard to keep it coherent.
    I think the best way to go about it is to follow through on 
what the framers of the Charter really intended, that the five 
permanent members would be the major decisionmakers in these 
kinds of highly sensitive political matters. It is not just a 
happy group of 15 countries sitting around exchanging views and 
trading ideas. The Perm Five pay the bulk of the costs on these 
sorts of things, particularly the United States, and in fact it 
is ultimately the United States that has to lead the Perm Five.
    There is just no substitute for American leadership, and 
where mandates have been successfully crafted it has been 
because there has been firm and decisive American leadership. 
When there has not been, problems have started right from the 
get-go and everything else has flowed from that.
    I think one thing that has happened over the past several 
years is that the cooperation among the five permanent members 
has deteriorated. There are a number of reasons for this. One 
is the increased assertiveness of the Europeans and the way the 
British and the French have become part of the European Union's 
decisionmaking structure, not acting so independently on their 
own, as they did even a decade ago.
    I think we have lost many, many opportunities on a range of 
things with the Russian Federation. I think that is reflected 
in the decisionmaking in the Security Council. And China is 
just as much of a problem today as it was 10 years ago or 
before.
    But the lack of cohesion, the breakdown of decisionmaking 
cohesion among the five permanent members, has been a principal 
factor in the loss of overall cohesion within the Council.
    Senator Grams. John.
    Dr. Hillen. A quick point, Mr. Chairman. The Security 
Council is for the most part incapable of making a 
strategically sound decision, part of the reason being, as Ken 
Allard suggested, that a military dialog, a dialog with the 
forces that will actually carry out a plan, never happens in 
the planning process, but also because it is a political body 
that mostly makes its decisions based upon political 
expediency.
    I will just give you one example from over 50 missions. In 
1978, when Israel invaded Lebanon, the Security Council met 
hurriedly, and agreed something needed to be done. The U.S. was 
especially pushing for a quick decision because we were 
concerned about this whole development endangering the upcoming 
Camp David Peace Accords in 1978. So the Security Council 
decided within a matter of 24 hours to send a peacekeeping 
mission to southern Lebanon, to do missions undefined in an 
area of missions yet to be determined.
    And it asked for the planning staff, which consisted of 
about a dozen civilian staffers at the time, to submit an 
operational plan within another 24 hours. So within 2 days they 
whipped together a mission and just threw it into this 
maelstrom, and it is still there, having significant problems, 
as it always has since 1978, 21 years later.
    So because this sort of body will always choose political 
expediency over a more deliberative strategic process in which 
some strategic considerations are actually weighed, I think the 
Security Council will continue to make decisions where it 
essentially is acting before thinking in the military sense.
    Senator Grams. Dr. Allard, I think it was you that 
mentioned that not the General Assembly authorizing, but the 
Secretary General? Did you say that, or did you mean the 
Security Council?
    Dr. Allard. Sir, the Security Council is the agency to whom 
the military staff committee under article 47 of the Charter 
was to report. So again, you see the consistency of the wisdom 
of the founding fathers, which was that the use of military 
force was to be the monopoly of the Security Council. 
Unfortunately, that article has become a dead letter. It was 
one of the features that became inoperative by virtue of cold 
war rivalries.
    What has sprung up instead is the DPKO, a Department of 
Peacekeeping Operations, but centered within the Secretariat. 
This is what John is referring to when he talks about the fact 
that all of a sudden you would put in the 911 call to these 
guys in the middle of the night and nothing would happen. It is 
the difference between what a bureaucracy will set up and what 
a staff structure will set up.
    Senator Grams. How do we go away from that and back to the 
original intent? Dr. Hillen?
    Dr. Hillen. Mr. Chairman, one thing that is interesting is, 
we have come to think of the Secretary General as the first 
citizen of the world, the wielder of a lot of power both 
political and strategic and moral. The Secretary General is a 
rather mundane figure in the Charter, not even mentioned until 
I think article 99 or something. And he is mentioned in a sort 
of matter of fact way: Ah, there is going to be this 
administrative officer, chief administrative officer of the 
United Nations, the Secretary General.
    As Ken Allard referred to, the ``United'' in ``United 
Nations,'' the title, actually referred to nations united in 
war, not in peace. It was envisioned that any military action 
the United Nations would take would be a continuation of the 
World War II wartime alliance, and that is where this military 
staff committee came in.
    Well, as soon as the cold war broke out that proved not to 
be an operable system. But it was never foreseen that the U.N. 
itself and the Secretariat, which is the bureaucrats to arrange 
for the administration, would actually be the strategic 
managers of military forces. If any force was to be used under 
the aegis of the United Nations, it would be a continuation of 
the Perm Five cooperating militarily and working under the 
Security Council, and then through their own military systems. 
And the military staff committee is supposed to be the chief 
military officer of each of the Perm Five, meeting regularly, 
talking through things.
    So this whole notion of peacekeeping, the whole notion of 
peace enforcement, the whole notion of blue helmets managed by 
the U.N. proper, is an improvisation not in the Charter. I 
think coherence and discipline on the Security Council, in 
which the U.S. is the 800-pound gorilla, so the onus is really 
on us, will really make a difference in not putting the 
organization in situations that it just cannot handle.
    Senator Grams. Gentlemen, I have to put us in recess here 
for just a few minutes. Senator Brownback cannot make it right 
now, but it should only take me about 20 minutes to go down and 
wait through the votes and then to be back. So if you could 
just be patient, because I just have a couple more questions, 
but I think it is important that we get those in before the 
hearing is over. So thanks.
    I will just put this into a brief recess. Thank you.
    [Recess from 11:01 a.m. to 11:21 a.m.]
    Senator Grams. Gentlemen, thank you very much for your 
patience and for waiting.
    Let us see here. I would like to bring this hearing back to 
order, by the way, and again thank you for your patience.
    I wanted to move into the area of the gratis personnel. 
What has been the impact on U.N. peacekeeping capacities of the 
removal of military gratis personnel, including those from the 
United States, on the Department of Peacekeeping Operations to 
provide the planning, the logistics, and other military 
expertise? So has the loss of these gratis personnel had any 
kind of an impact, do you think, on the planning, the 
logistics, or other expertise required for some of these 
peacekeeping operations?
    Dr. Hillen.
    Dr. Hillen. Mr. Chairman, I can say a word about that 
having been up there and observed it in action. You can follow 
the sort of growth in the Department of Peacekeeping 
Operations, which was only created in 1993-94, and the number 
of gratis personnel. It pretty much tracks along the lines of 
what is shown here.
    As I said, in 1988 less than a dozen civilians doing 
peacekeeping. Then by 1993, the Department of Peacekeeping 
Operations has not only been stood up, but it had grown to 
almost 400 people, and mostly military personnel who were 
seconded to the U.N. staff by their nations.
    Well, as peacekeeping correspondingly goes back down and 
becomes less militarily complex and sophisticated and 
expensive, I think you need a lot less planners because the 
planners up there essentially become superfluous. And what you 
do not want is--and I forget the name of the bureaucratic 
phenomenon, but you do not want the fact that because you have 
a big and seemingly capable planning staff, that therefore you 
should ramp up operations to meet the staff capabilities. You 
do not want that phenomenon to happen.
    So I think, necessarily because I think the U.N.'s military 
role in these bigger operations should be kept to a minimum, so 
too I think the staff involved in planning those should be kept 
to a minimum. I think they would do much better if they had 
experts up there on civil governance, on policing, and on 
traditional peacekeeping, rather than a full-fledged joint 
staff-looking military planning group. I think that will just 
lead the U.N. to be even more tempted and the Security Council 
to be more tempted to push the U.N. into operations which they 
should not undertake.
    Dr. O'Hanlon. I will add one point if I could, Senator. I 
agree with John, but I would also like to have a few of our 
people up there. I will use the example of--and I am sure you 
would, too, John. I will use the example of disarmament that 
Ken Allard mentioned as a dangerous activity. It is a term we 
often talk about, ``disarming factions.'' It is a very dicey 
thing to get into.
    I think we understand that better than some in the U.N. 
system who use that term very casually, disarming militias, as 
if that is a very natural and easy thing that everybody will 
agree to and the militias themselves will happily accept. I am 
nervous--if there is one part of the Congo mission I am nervous 
about, it is the word ``disarmament'' as it is written in.
    It is not something we plan to try right away in this 
current phase, but it is still in the language. And if we get 
into that at all, we want to do it very carefully. So I would 
like to see U.S. personnel and other Western planners involved 
in that U.N. discussion at all levels about just how hard do we 
pursue the idea of disarmament.
    Senator Grams. Let us continue with the Congo and that 
question. The Security Council recently approved an expanded 
peacekeeping mission to the Democratic Republic of the Congo, 
or DROC. As Ambassador Holbrooke stated during our field 
hearing in New York: ``A failure of this mission would 
ultimately represent strike three for U.N. peacekeeping.''
    Dr. O'Hanlon, if the DROC mission fails will there be a 
retrenchment to traditional peacekeeping operations, or how 
much hinges on DROC?
    Dr. O'Hanlon. Well, I do feel this is a traditional 
mission, but it is a risky traditional mission. It does not run 
the risk, I do not believe, of doing the same sort of thing 
that John has criticized us for doing in Bosnia and Somalia and 
Cambodia. It is a much more modest operation. Most of the 
people there are going to protect the monitors. They are not 
going to try to separate the combatants physically. They are 
going to protect the monitors.
    So I think the mission is defined in a relatively modest 
way. But it still could fail, and if it does then it will, as 
you pointed out in your opening remarks, harm U.N. credibility. 
There is a risk and there are costs to failure. Again, I 
support the mission because there are also costs to inaction, 
and there are a lot of people who have lost their lives in that 
civil war. If we have a chance of just giving a little 
assistance to the peace process, I am in favor of trying it. 
But I am cognizant of the risks and we really do not want to 
fail.
    Senator Grams. Let me just ask a quick question. Is it a 
well-defined mission? Is the strategy there? There are many 
that believe that it is set up to fail or that it is going to 
take many, many more troops in order to be successful than what 
the original plan is. So is this another poorly planned 
operation or do you think that it is well planned and 
strategically sound?
    Dr. O'Hanlon. I think it is reasonably well planned, but I 
think it is risky, because we are not putting in enough people, 
and we do not have the U.N. operation or capability to do so, 
to separate these combatants physically. So we are counting on 
them.
    Now, I am not sure it is even knowable if this will work. 
We do not know how the Hutu extremists are going to behave, for 
example. We do not know how Kabila is going to behave. We 
cannot dictate to them their actions, of course. All we can do 
is try to assess the risks and the probabilities.
    I would rate this one as a relatively risky mission and 
with only modest chances of success. I would not deny that 
fact, even though I support it. But I just do not think it is 
necessarily--it does not necessarily mean it is a bad mission. 
But it is a very risky one.
    Senator Grams. Mr. Bolton.
    Ambassador Bolton. I would like to dissent from the 
proposition that this is a traditional U.N. peacekeeping 
operation. I do think it passes the jurisdictional test. I do 
think this is a case, because of the several nations that are 
involved supporting one side or the other--in fact it is a 
multi-sided operation--I do think that the international peace 
and security part of the test is satisfied.
    But if you look at last summer's cease-fire agreement and 
the multiple breaches of it that have occurred; if you look at 
the statements that the seven national leaders made at the 
Security Council in January, where it was apparent from their 
own public remarks there was no true meeting of the minds among 
them about how the peace process would unfold; if you look at 
events on the ground since January, some of which I mentioned 
in my testimony--Kabila's frustration with the political 
efforts by the United Nations, the inability really to find out 
where the combatants are for purposes of disengagement, and the 
small size of the mission--what you are talking about is 
inserting the U.N. force into a politically unstable and 
uncertain context.
    That is precisely the kind of situation where the U.N. has 
failed before. What it shows is a desire on the part of those 
concerned about the Congo and the Great Lakes region as a whole 
to be able to say that we are doing something. But I do not 
think anybody has much confidence in how much this is going to 
be able to do.
    The next stage people are talking about is a 15,000-person 
deployment. I am sure there are other plans or other 
contingencies where it would get larger and larger and larger. 
This is getting the peacekeeping force deployed before there is 
a political resolution and that violates the fundamental rule 
of peacekeeping: consent of all the parties.
    We need far more diplomatic activity and a little 
application of pressure in those cases where it can be applied 
behind the scenes. We should have had that before we agreed to 
this peacekeeping force in the first place.
    I do think Michael O'Hanlon made the point, and I just want 
to underline it: a failure here would--as Ambassador Holbrooke 
said in a remarkably candid statement--make it very hard to 
have support for subsequent U.N. peacekeeping operations. It is 
one reason why you have to pick your spots carefully.
    Senator Grams. Colonel Allard, we are talking about the 
Congo being--but Sierra Leone. The current peacekeeping mission 
in Sierra Leone is unable basically to protect itself, let 
alone enforce the mandate that it has. This situation was 
predicted by some before the mandate was approved. Yet the 
Security Council rushed to embrace an expanded mission which 
includes peace enforcement action.
    Now, the reality on the ground is that peacekeepers do not 
have the freedom of movement and are subject to the will of the 
RUF and the AFRC rebels. For example, it was a month and a half 
ago that RUF rebels forced the disarmament of the peacekeepers 
and the total taking from the peacekeepers, I guess, included 
around 500 AK-47's, a truckload of ammunition, 3 armored 
personnel carriers armed with large-caliber machine guns, and 
the pay box. Arguably, I guess you could say that the U.N. 
peacekeepers have contributed more toward the fighting ability 
of the rebels than they have contributed to peace in the 
region.
    Now, given that U.N. peacekeepers in Sierra Leone have 
proved to be unable to ensure their own security, let alone the 
more difficult aspects of their complex mandate, do you think, 
Colonel Allard, that the U.N. has learned anything from past 
failures such as Somalia?
    Dr. Allard. Senator, when I hear tales like that I am 
inclined, frankly, to be quite cynical. I would emphasize my 
previous point about the absence of an effective means to 
channel these areas of military advice to the decisionmakers at 
the United Nations, which by definition are the Security 
Council permanent members.
    There are a couple of reasons why you have a staff. I 
absolutely agree with John about the fact that the last thing 
you want the United Nations doing is planning operations. They 
have one function as far as I am concerned and that is to 
ensure that there is a precise mandate.
    One of the other things that a military staff will give you 
is a degree of institutional memory whereby those lessons that 
you have learned affect your current perceptions and your 
future operations. That is one of the main reasons why you have 
a staff. So when I hear these horror stories about making the 
same mistakes time after time, I am reminded of Senator 
Thurmond's statement that his favorite definition of futility 
is people who keep doing the same thing time after time while 
expecting different results. It seems to me we are very close 
to that, given what you just talked about.
    Senator Grams. Should U.N. peacekeepers ill-prepared to 
face the reality of nonpermissive environments such as Sierra 
Leone or in the Congo--then I go back to the question, I guess, 
Mr. O'Hanlon--should they be deployed at all if they do not 
have this clear mandate or the capability of carrying out the 
mission?
    Dr. O'Hanlon. It is an important question. I think that you 
have to ask what are they being asked to do themselves. I do 
not want peacekeepers who are poorly trained going in and 
trying to disarm people in Congo. At least that is my instinct. 
I need to be convinced that makes sense. So where the mission 
may go makes me nervous and wary. It does not make me opposed 
at this point, but it makes me nervous, and I would have to be 
convinced.
    On the other hand, to go in as observers to observe a 
separation of the parties, which is contingent on their 
agreement--as Ambassador Bolton has pointed out, this agreement 
is a little tenuous right now. But we are not going to deploy 
this force, as I understand it, and not going to stay there 
unless they do cooperate. That much I think peacekeepers can 
do.
    However, as you pointed out, that may not be enough to 
ensure peace. So it is a risky proposition, I acknowledge that. 
At the end of the day I am in favor of it, but it is risky and 
we had better not let these people try to do more than they are 
capable of, either. These peacekeepers are not going to be 
capable of disarming combatants.
    Senator Grams. Colonel Allard.
    Dr. Allard. Then, Senator, my rejoinder would be: Why are 
they there? Again, when I hear a phrase like ``peacekeeping in 
a nonpermissive environment'' I get that itchy feeling between 
my shoulder blades, because that to me is indistinguishable 
from combat. And to me combat precedes peacekeeping. If 
basically what you have got to go do is to force people to go 
in and put down their weapons, that to me is an act of war.
    Because I have a very binary mind, I understand combat and 
non-combat. What you just described is combat.
    Senator Grams. I would like to move just one step further. 
The logical followup question would be then: If not the U.N. 
peacekeepers, who could do the job? I mean, what are our 
options say in the Congo or other parts of Africa if not the 
U.N.? Mr. Bolton?
    Ambassador Bolton. I think we have to be mature enough to 
recognize that in some cases there just are not any solutions 
in the short term. I certainly support the notion that regional 
organizations should do more, but that is a highly abstract and 
empirically not supportable proposition, to be unkind and blunt 
about it. If we had waited for the Organization of American 
States to take action in multiple situation from Grenada to 
Panama, we would still be waiting.
    If you look at some of the things that have been trumpeted 
as successes for regional peacekeeping organizations--Sierra 
Leone, Liberia, actions taken by the ECOWAS states through the 
ECOMOG group--part of the problem in Sierra Leone today is 
precisely the failure of the regional peacekeeping 
organization, even after its troops have been deployed, to 
bring the situation under control.
    So I think it would be naive not to realize that in the 
regional context, sometimes the politics and the national 
interests that are being pushed are much more likely to cause 
an exacerbation of the conflict because of conflicting 
loyalties than if a real outside operation like the U.N. were 
to be involved.
    But I do not think we should blink at the reality that 
there are some conflicts, from the U.S. perspective, where we 
do not have a national interest and where there is not anybody 
who can step in. I regret that. But I think it is far better to 
face that prospect unhesitatingly than to say kind of 
wistfully, ``well, I guess we ought to do something,'' and put 
the United Nations in in a context where it cannot succeed and 
where there is substantial risk that the U.S. itself will be 
drawn in further.
    Senator Grams. According to the French Ambassador again to 
the United Nations, moral responsibility. Does that melt or 
define national security?
    Ambassador Bolton. Never underestimate European cynicism. I 
know that Ambassador. He is a fine man, but it is easy to talk 
to us about morality. Asking what they are prepared to do on 
the ground is a very different thing.
    Senator Grams. Mr. O'Hanlon.
    Dr. O'Hanlon. Senator, I would simply submit that morality 
obliges us to have this debate. It does not oblige us to do any 
specific thing. We have to combine our concern for the people 
of the Congo with our military limitations, with the political 
prospects for a successful intervention, and come up with a 
policy that is well thought through.
    So I would agree with the Ambassador only insofar as 
commending you for having this hearing and being concerned 
about this issue. I do not think morality obliges you to 
support the Congo mission, even though I myself do support it. 
It just suggests we have to think about what we can do to save 
lives around the world.
    That is a national interest at some level, but it is not 
the top level national interest of protecting our own territory 
or even protecting our traditional allies.
    Senator Grams. So just not to throw peacekeepers at it if 
it is too small a group and too ill prepared. I mean, that is a 
disaster as well.
    Ambassador Bolton It can make the situation worse, in fact.
    Dr. Hillen. In fact, Senator, all your questions build upon 
a response. You come down to--at the end you say: Well, gosh, 
that is an awfully frustrating mix of things; I guess we still 
have to do something. And you have alluded to it and several of 
the other witnesses, there is an escalatory dynamic in these 
things. If you start off bad, you are going to throw a lot of 
good money after bad.
    Senator Grams. Mission creep.
    Dr. Hillen. Exactly. We talked about it in Somalia. In 
Bosnia it was the same thing. It started off as a relatively 
innocuous mission, a few peacekeepers, just going to deliver 
some food. Then we added on safe areas, then we added on a NATO 
air enforcement layer, and then all of a sudden we were at 
40,000 heavily armed troops literally at war, Danish tanks 
firing for the first time in 50 years, having tank battles with 
Serbians.
    There is an escalatory dynamic where you keep reinforcing 
the mission precisely because the previous steps have failed 
and you keep digging yourself into a hole. So we have to think 
very carefully. The old Clausewitzian dictum has been brought 
up, but he said never get involved in a war unless you first 
know what you might get out of it. We do not often answer that 
question.
    Dr. Allard. Senator, I agree with that. That is why I made 
the point earlier that it is apparently a lot easier for us to 
accept the idea of endless troop commitments than it is to 
insist on a decisive military or political outcome. Now, there 
are lots of ways to cause a decisive military or political 
outcome. I came across the bridge from Virginia today. There 
was a decisive political outcome there back in 1865 at a place 
called Appomattox that settled somethings for all time.
    By contrast one has to be impressed with the fact that 
there are relatively few comparable tools out there in the 
international environment. As the saying goes, when all you 
have is a hammer, everything looks like a nail. I still think 
that what we have got to be prepared to do is to demand a 
political or a military solution prior to the injection of a 
peacekeeping force.
    The classic example of that is the Dayton Accords. In 
Bosnia, despite our insistance on a multi-ethnic state, it in 
fact is a partitioned state. It will endure in that condition 
for so long as you have people there in the role of 
peacekeepers. It will not endure for 20 minutes once they are 
removed.
    So if that precarious situation encourages you, by all 
means do more of them worldwide.
    Senator Grams. Senator Sam Brownback has joined us. I have 
just one more question that I would like to ask and then I have 
to leave for another meeting, and if Sam would like to just 
wrap up the hearing from there, if you would.
    The one question I would like to wrap up on is my concern 
over PDD-71, which is expanding or moving away from the PDD-25 
of what peacekeeping normally is referred to or thought of. But 
PDD-71 appears to move us from using peacekeeping as a tool for 
settling disputes to using it as a tool for restructuring 
societies. It is going another step, making many more 
commitments, I think, than previously we have been prepared to 
do or have been asked to do or expected to do.
    Any opinion on where this new directive or what we know of 
it could lead us in the future?
    Ambassador Bolton. Well, most of us on this panel, I think, 
are probably not best equipped to discern what was in the 
administration's mind when they came up with it. But I do 
believe that----
    Senator Grams. What was the genesis behind it, maybe?
    Ambassador Bolton. I think that it really does reflect 
where the administration has been all along. I have not 
actually seen the document myself, but from what I have heard 
of it, it is almost like the first draft of PDD-25 before it 
went through the inter-agency process and was made 
substantially more realistic.
    I think it may be attributable simply, in the waning days 
of the administration, to them saying what they actually 
thought back in 1993 but were unprepared, for their own 
internal reasons, to put on paper then. If there is a different 
reason, I would be happy to stand corrected. But I think that 
is an extremely important subject for you and the committee to 
pursue in your hearing with an administration witness.
    Senator Grams. Colonel Allard.
    Dr. Allard. Sir, I strongly concur with what the Ambassador 
just said. It would seem to me that, if anything, the 
administration should have been chastened by experience. But 
then I return to the point that we just raised on lessons 
learned. I am simply not sure that this reality has crept 
through yet.
    Senator Grams. Dr. Hillen.
    Dr. Hillen. It could be further evidence of this 
``Groundhog Day'' effect I talked about. PDD-25 in its original 
drafting, as was alluded to, was a document much like this 
current document. But not only the inter-agency process, but 
what actually happened in Somalia, severely chastened the 
ambitions of that document. And it turned out to be I think 
quite a good one. PDD-25 sets out many of the realistic 
considerations we have talked about in this hearing that you 
need to go through, rather than just jumping into a situation 
without thinking it through.
    On the other hand, I do think you need to pursue this 
document because the ramifications for U.S. policy are huge. If 
this does indeed become a Presidential decision directive that 
is used to really guide and shape the executive branch in the 
execution of policy, it is going to reach across a lot of 
different agencies and departments and it is going to harness 
them to a set of goals heretofore that we have not done well in 
accomplishing, whether it is in Somalia or Haiti, which we have 
not talked about yet today. But Haiti is right back to being 
the same predatory political culture that it was before we 
invaded.
    So there are some very significant ramifications if that 
document is adopted across the inter-agency process and it will 
take us in a very different direction than all the lessons 
learned that we have talked about here today.
    Senator Grams. Much more exposure.
    Dr. O'Hanlon. Senator.
    Senator Grams. Dr. O'Hanlon.
    Dr. O'Hanlon. I think and hope that they are savvier than 
they were in 1993. I am just frustrated it took this long. I 
like the document, but to me it is a shame it is so late. I 
think now they are going to be savvier about using the U.N. to 
go on big missions. I do not expect the administration to 
blithely and naively go into a big expansion of the Congo 
mission. I may disagree with my fellow panelists on that point. 
I think they are savvier about what the U.N. can do. They are 
not going to do peace enforcement through the U.N.
    But to me it is just regrettable it took them this period 
of overambition and then overcorrection to wind up at a place 
that I think doctrinally is about right. But even if they got 
the doctrine right now, it does not mean they are going to get 
every mission right. Every mission has to be judged on its own 
terms.
    So I fully applaud the discussion we have had on, and your 
raising specific concerns about Congo, Sierra Leone, because 
even if you get the doctrine right you have got to get the 
specifics right as well. I remain worried. I support the 
missions, but I remain worried that they could fail. These are 
tough missions.
    Senator Grams. Mr. Bolton, I will just end on you. You said 
where the administration was all along with PDD-71. Is there 
any clarification on that?
    Ambassador Bolton. Well, their declared policy at the 
outset was that they wanted to pursue something they called 
``assertive multilateralism.'' I never quite understood what 
they meant by ``assertive multilateralism.'' I am not sure in 
certain respects they were ever very clear about it. The 
rhetoric largely disappeared after the tragedy in Mogadishu, 
but it has been my belief that the underlying policy thrust has 
never really disappeared.
    I think that is something that the administration, at its 
senior foreign policy levels and in some cases on the national 
security side, has been committed to from the outset. I think 
it is reflected not just in things like U.N. peacekeeping, but 
in a whole range of other activities covering the full panoply 
of national policy decisions we make, whether on human rights, 
the environment, or a whole range of other things. I think 
``assertive multilateralism'' is the way they see playing out 
America's role in the world.
    I happen to find the way that they are pursuing it very 
troubling. But I think in this PDD they are simply coming back 
to where they already were.
    I might say just very briefly that we are now in the middle 
of a 2-day conference at AEI called ``Trends in Global 
Governance: Do They Threaten American Sovereignty?'' I brought 
up some of the papers for you and for the minority as well. 
These are issues that I think that this committee has looked at 
extensively before, and I certainly hope you will continue to 
do it, because the policy reflected in the PDD, in the draft, 
goes well beyond U.N. peacekeeping. It really is a way of 
looking at America's place among the nations that I think 
deserves serious debate.
    Senator Grams. Senator Brownback.
    Senator Brownback. Thank you, Senator Grams, and thanks for 
holding the hearing. I think this is a good colloquy. I am 
sorry I just caught the tail end of it here, and I apologize to 
the witnesses that I did not catch your testimony, so the 
questions I ask may cover ground you have already covered and I 
apologize for that.
    But I am frustrated about our tactics, given what our 
objectives are. Haiti you have mentioned, I guess you have not 
talked about here, but as I understand this is the third time 
we have been in Haiti. During the last century we were there 
three times, if I am correct, in various missions to try to 
establish order and create a civil society, and it still has 
not happened.
    I look and I start to study Africa, and I am not well 
versed at all on Africa. But yet I look at it and I feel the 
moral obligation. The United States has the ability, has the 
capacity to step in and try to create some sort of order that 
hopefully a civil society and economy can build around. And yet 
I am troubled that it does not appear as if the way and the 
tactics we tried in the past are likely to be any more 
successful now than they were in the past.
    If you were to design how would we go about helping create 
a civil society in some of these areas in Africa in particular 
that have had difficulty stabilizing for lengthy periods of 
time, how would you do it then with the full range and 
complement of tools at your availability that the United States 
has?
    Ambassador Bolton. If I may take a shot at that, I am not 
sure that we can do that. I am not sure that nation-building as 
a policy that we do to others is realistic. I would argue in a 
very real sense, after 224 years we are still nation-building 
in the United States and the idea we are going to kind of go to 
Somalia or Haiti and square the place away I think is just as 
unrealistic as the idea we are going to go to the inner city or 
Appalachia or anywhere else in America and square that away.
    I think the main thing that the United States can do is not 
proceed from the admittedly idealistic but fundamentally 
erroneous notion that we can do things that societies have to 
do for themselves. I think our most substantial influence is 
not participating in multilateral nation-building exercises, 
but in the kinds of opportunities of educational exchange, 
trade, investment, and long-term development that give access 
to our economy and allow nations to make these fundamental 
choices themselves.
    We cannot make civil society in Haiti or in Somalia. The 
people themselves have to do that. That is a hard and 
unpleasant statement to have to make, but I believe it is 
accurate.
    Senator Brownback [presiding]. Doctor.
    Dr. O'Hanlon. Senator, focusing on the issue of what we can 
do with the peacekeeping missions that we may be able to 
undertake, I see two choices. One is muscular, impose the 
peace, as we are doing in the Balkans. There we are relatively 
able to do so even if the parties resist at some level.
    The second approach, which we usually apply in Africa, is 
count on cooperation, and if you do not get it the mission will 
fail. I would say that that is what we are now doing in Sierra 
Leone and Congo. I will give two examples of where we tried 
that before, Angola and Mozambique. In Angola it failed, in 
Mozambique it worked. In both cases we sent in a few thousand 
people under U.N. auspices and in both cases we depended on the 
local actors, and we had no choice because the size of the 
mission and the mandate were not ambitious enough to stop 
Savimbi from going back to war in Angola, for example.
    So I think in Congo and Sierra Leone we are rolling the 
dice. We are giving the local parties a better chance than they 
would have otherwise, but all we are doing is improving the 
percentages, and the percentages are still not that great. For 
me that is probably still a worthwhile mission as long as we 
are very careful to watch for mission creep and very careful to 
make sure this does not get out of hand and pull out if we need 
to. But I think it is worth the 50-50 chance of improving the 
chance for peace.
    Dr. Hillen. Senator, I would like to make three quick 
points. I think we need to rely on much less the military 
component. We tend to thrust the military into the lead role in 
all these sorts of missions simply because--and we had talked 
about this earlier in the hearing--it is the most well-
resourced. It has all the stuff that can get you there and do 
things. It has got that famous can-do attitude. They get up 
early, they go to bed late, they work all day. And thus it 
always tends to get thrust into the lead role, and I have found 
myself in that role a couple of times as a former military 
officer, doing things that some other agency of the U.S. 
Government should probably do, but I had the tools and the 
resources, so I was doing them.
    Most of these missions, I think the key to success is not 
militarily. Certainly there is a security component to them, 
but I think diplomacy and other tools, economics, 
informational, cultural, need to work harder to create that 
self-help environment in the security realm, because an imposed 
military solution is usually counterproductive, as we found out 
in Somalia and which could bite us in Kosovo.
    Second, I think you need to work from the inside out on 
these things. In other words, democracy is by nature a home-
grown enterprise and it being foisted or imposed on somebody by 
an outside, somewhat disinterested power, or interested only 
for the time being for whatever reason, tends not to work and 
it certainly does not last. As we have talked about, Bosnia is 
not going to last if the peacekeepers pull out because the 
solution in many ways was imposed upon the belligerents.
    So I think we need to work from the inside out, and the 
principal actors should be local, then regional, and only then 
perhaps large manifestations of the international community.
    Third in that vein, I think we need to develop more 
regional capabilities. I support the African Crisis Response 
Initiative that the U.S. is helping train because I think it is 
going to be a more organized and structured way than something 
like ECOMOG for Africans to start taking responsibility for 
some of the security dilemmas that are affecting only Africa 
and where an imposed solution by outside powers, be it the EU 
or the U.S. or the United Nations, does not seem to always 
work.
    In some places we have good regional capabilities, like 
Europe and in parts of Asia. I thought the East Timor operation 
with Australia taking the lead, creating a supportive political 
environment, and only then handing off to the United Nations, 
looks like it might work. In some places we do not have those 
regional capabilities, we do not have a 400-pound gorilla on 
the block who is in the region that can lead those. I think we 
need to work on developing those.
    But what we certainly should not do, and of which I am 
assured after all my study, is send all these responsibilities 
up to a large international body like the U.N. and ask it to 
handle everything. That way I think lies ruin. I think we need 
to work at lower levels and only go back up. It is very akin to 
the principle of federalism we have here in the U.S., where 
some decisions, the most important decisions, should be left at 
lower levels and only some should be moved up the chain to the 
high levels.
    Dr. Allard. Senator, you mentioned the point that we had 
intervened in Haiti on a number of occasions. In my statement I 
mentioned the fact that just in the last 6 years we have 
intervened some 53 times in areas of the world in which the 
threat was sufficiently serious that there was a notification 
of the Congress under the War Powers Act, and those are CRS 
figures.
    If you are willing to be guided by history, then you have 
to be impressed at the difficulty of moving traditional 
societies much beyond their ability or their willingness to be 
moved. Their time scales are radically different from ours. 
Culture has to be defined very much in local terms and their 
culture is different from our pluralistic democracy.
    So I think that what that caution would suggest to us is 
the fact that when you want to do some good, recognize two 
facts: No. 1, military forces buy time and that is all they do. 
I would argue that in Bosnia we are not using that time very 
wisely. All we are doing is essentially guaranteeing the status 
quo right now, but not status quo ante, nor are we even moving 
toward any kind of future goal.
    No. 2, the real peacekeepers are not those of us who are in 
uniform. The real peacekeepers are the humanitarian and 
nongovernmental organizations that are over there, that can 
help get some of these things done.
    As I said in my statement, the difference between genius 
and stupidity is that genius understands limits. And in this 
international environment we are operating and will be 
operating under some very severe limits.
    Senator Brownback. Do all of you agree that in Mozambique 
our formula worked? Dr. O'Hanlon, you suggested that in 
Mozambique this one worked.
    Ambassador Bolton. I think I would agree that Mozambique 
was a success, largely because in fact the parties to the 
dispute, RENAMO and FRELIMO, had reached a real meeting of the 
minds. They had decided that the civil war had exhausted both 
sides, basically destroyed the country's economy, and, at least 
up until the recent flooding, seemed to be doing a pretty good 
job on an equitable basis of sharing power and taking care of 
their different constitutents. They are regionally based in 
different parts of the country. This is unlike Angola, where 
overly hasty efforts, contributed to by the United States in 
many cases, to get the different warring factions together, 
produced agreements that diplomats could hail as successes, but 
that did not reflect the true meeting of the minds.
    I do not think that in either of the two UNAVEM operations, 
the two U.N. peacekeeping forces in Angola, that the collapse 
of the agreements reflected adversely on the performance of the 
United Nations. I think it reflected adversely on the 
performance of the diplomats who put the deals together that 
ultimately were not successfully implemented. That to me is one 
of the concerns we discussed a few moments ago about the Congo, 
the kind of compulsion among leading nations in the Security 
Council to say, ``We have brought peace to the Congo and to 
implement it we are going to send out a peacekeeping force,'' 
gives them the best of both worlds. They get the photo 
opportunity of everybody signing up to a peace agreement and 
then they can blame the later failure on some inadequacy in the 
peacekeeping force, when in fact the real failure is at the 
political level.
    Dr. Hillen. Peacekeeping, Senator, whether managed by the 
U.N. or otherwise, is just not a tool for all seasons and it 
really needs to be carefully applied.
    Senator Brownback. Let me focus you on Mozambique. Do you 
think Mozambique worked?
    Dr. Hillen. I think the U.N. peacekeeping mission there is 
generally considered a success by almost everybody involved.
    Senator Brownback. What do you think, Dr. Allard?
    Dr. Allard. Sir, I think you would have to say that it did, 
simply because of the fact that if there is an intent to peace 
on the part of parties that formerly were at war, well, then 
you can have peacekeeping. Then it makes sense.
    Senator Brownback. That is the old saying that there is a 
time for shooting and there is a time for talking.
    Dr. Allard. Senator, in international politics, much as 
domestic, timing is everything. Every time that I think about 
these operations, I am constantly reminded of the fact that it 
is like what happens if you break your leg. The physician does 
two things. First of all, he brings the body back into 
alignment to allow healing. Only after that does he put the 
cast on.
    Think of military forces as that cast. But unless the 
alignment has been taken care of in political settlement, you 
are wasting your time.
    Senator Brownback. Or it is maybe like Solomon in 
Ecclesiastes----
    Dr. Allard. Precisely.
    Senator Brownback [continuing]. There is a time for 
planting and a time for harvesting.
    If I could, I was just wondering, then do I hear really all 
of you advocating saying we have just got to be a lot more 
sophisticated about when and how you can use peacekeepers? I do 
not hear any of you saying, if I am correct, you are not for 
using these. It is just using them in aggressive 
multilateralism or as--I have seen it seems like we have almost 
used them like a Peace Corps. Just to send them in kind of 
almost an aggressive Peace Corps with guns to try to stabilize 
some situations just is not going to work on a frequent basis, 
unless the environment is correct and ready.
    Ambassador Bolton. I think there are historic lessons we 
have all talked about that are there and really not very 
seriously in dispute. The question is whether you have the 
discipline to resist the calls that many people make, and again 
in complete good faith, to do something when in fact to do 
something might actually make the situation worse.
    Senator Brownback. Resist the nightly news.
    Thank you very much, panel. I think this is a very 
important topic. I am sorry, Mr. Chairman, that there are not 
more members or there is not more coverage on it, because the 
number of things that we have been involved in like this, the 
billions of dollars, the lives that have been at stake--this is 
of huge importance. I would hope we would think a lot more 
about it.
    Senator Grams [presiding]. Thank you very much, Senator.
    I want to thank the panel very much for being here and for 
your candid answers. I would like to leave the hearing formally 
open for about 3 days in case any other Senators would like to 
submit any questions in writing. And if they do I would 
appreciate a quick response if you could. But again, thank you 
very much, gentlemen, and I appreciate your time.
    The hearing is complete. Thank you.
    [Whereupon, at 12 o'clock noon, the subcommittee was 
adjourned.]

                                   - 

</pre></body></html>
